No. 20-A_____

In The
Supreme Court of the United States
GATEWAY CITY CHURCH; THE HOME CHURCH; THE SPECTRUM CHURCH,
ORCHARD COMMUNITY CHURCH; TRINITY BIBLE CHURCH,
Applicants,

v.
GAVIN NEWSOM, in his official capacity as Governor of the State of California;
SANDRA SHEWRY, M.D., in her official capacity as Acting Director of California
Department of Public Health; SARA H. CODY, M.D., in her official capacity as Santa
Clara County Health Officer; COUNTY OF SANTA CLARA,
Respondents.
__________________________________________________________________
To the Honorable Elena Kagan,
Associate Justice of the United States Supreme Court
and Circuit Justice for the Ninth Circuit
Emergency Application for Writ of Injunction Or In The Alternative For
Certiorari Before Judgment Or Summary Reversal
Relief Requested by Sunday, February 21, 2021
Kevin T. Snider Counsel of Record
Emily C. Mimnaugh
PACIFIC JUSTICE INSTITUTE
P.O. Box 276600
Sacramento, CA 95827
Tel. (916) 857-6900
E-mail: ksnider@pji.org
emimnaugh@pji.org
Sharonrose Cannistraci
CANNISTRACI LAW FIRM
236 N. Santa Cruz, Ave., Suite 217
Los Gatos, California 95030
Tel. (408) 307-5662
E-mail: cannistracilaw@gmail.com

Marlis McAllister
McALLISTER LAW GROUP
P.O. Box 756
Pine Grove, CO 80470
Tel. (650) 346-3792
E-mail: marlis@mcallisterlaw.net

Counsel for Applicants
i

QUESTION PRESENTED
Does the County of Santa Clara’s 0% capacity public health order on indoor
worship services violate the Free Exercise clause of the First Amendment?
PARTIES AND RULE 29.6 STATEMENT
The following list provides the names of all parties to the present Emergency
Application for Writ of Injunction and the proceedings below:
Applicants are Gateway City Church, The Home Church, The Spectrum
Church, Orchard Community Church, and Trinity Bible Church. These are Plaintiffs
in the U.S. District Court for the Northern District of California, referred to herein as
the District Court, and are the Appellants in the U.S. Court of Appeals for the Ninth
Circuit, referred to herein as the Ninth Circuit.
Gateway City Church is a domestic nonprofit religious corporation
incorporated under the laws of the State of California, and does not have a parent
corporation, or issue stock.
The Home Church, Inc. is a domestic nonprofit religious corporation
incorporated under the laws of the State of California, and does not have a parent
corporation, or issue stock.
The Spectrum Church, San Francisco Bay Area, Inc. is a domestic nonprofit
religious corporation incorporated under the laws of the State of California, and does
not have a parent corporation, or issue stock.

ii

Orchard Community Church of Campbell is a domestic nonprofit religious
corporation incorporated under the laws of the State of California, and does not have
a parent corporation, or issue stock.
Trinity Bible Church is a domestic nonprofit religious corporation incorporated
under the laws of the State of California, and does not have a parent corporation, or
issue stock.
Respondents are Gavin Newsom, in his official capacity as Governor of the
State of California; Sandra Shewry, M.D., in her official capacity as Acting Director of
California Department of Public Health, Sara H. Cody, M.D., in her official capacity
as Santa Clara County Health Officer, County of Santa Clara. Respondents Newsom
and Shewry are jointly represented and referred to herein as the State. Respondents
Cody and the County of Santa Clara are jointly represented and referred to herein as
the County.
DECISIONS BELOW
All decisions in this case in the lower courts are styled Gateway City Church v.
Newsom.
• The District Court’s decision granting in part and denying in part Plaintiffs’
motion for a preliminary injunction is attached hereto as Exhibit D.

iii

• The District Court’s order granting in part Plaintiffs’ emergency motion to
enjoin State and County COVID 19 restrictions pending interlocutory appeal is
attached hereto as Exhibit C.
• The District Court’s order granting County’s motion for leave to file a motion
for reconsideration and staying the order granting in part the Plaintiffs’ emergency
motion to enjoin State and County COVID 19 restrictions pending interlocutory
appeal is attached hereto as Exhibit B.
• The Ninth Circuit’s order denying the Appellants’ emergency motion for
injunction pending appeal is attached hereto as Exhibit A.

ADDITIONAL EXHIBITS:
• Santa Clara County Public Health Directive: CAPACITY LIMITATIONS attached
hereto as Exhibit E (the Capacity Directive).
• Santa Clara County Public Health Directive: GATHERINGS attached hereto as
Exhibit F (the Gathering Directive).
JURISDICTION
Applicants have pending an interlocutory appeal in the Ninth Circuit. This
Court has jurisdiction under 28 U.S.C. § 1651.

iv

TABLE OF CONTENTS
QUESTION PRESENTED ................................................................................ ii
PARTIES AND RULE 29.6 STATEMENT ...................................................... iii
DECISIONS BELOW ........................................................................................ iii
ADDITIONAL EXHIBITS................................................................................ iii
JURISDICTION .................................................................................................. iv
TABLE OF CONTENTS..................................................................................... v
TABLE OF AUTHORITIES .............................................................................. vi
TO THE HONORABLE ELENA KAGAN, ASSOCIATE JUSTICE OF THE
SUPREME COURT AND CIRCUIT JUSTICE FOR THE NINTH
CIRCUIT .............................................................................................................. 1
INTRODUCTION .............................................................................................. 3
SUMMARY OF THE ARGUMENT .................................................................. 3
SUMMARY OF FACTS AND PROCEDURAL HISTORY ............................... 5
General Litigation Challenge ............................................................................... 5
Challenge to County Orders Relevant to this Application ................................... 6
Relevant Procedural History ................................................................................. 9
REASONS FOR GRANTING THE APPLICATION ..................................... 10
I.

THE VIOLATION OF THE CHURCHES’ RIGHTS IS INDISPUTABLY CLEAR ...... 10
A. The County’s 0% capacity for indoor worship services is neither
v

neutral nor generally applicable. ....................................................................... 9

B. Use of the wrong legal standard by the lower courts is a sufficient ground
to grant the application until the County carries its legal burden .............. 16
II.

THE CHURCHES FACE IRREPARABLE HARM BY THE CONTINUED
EXCLUSION OF CONGREGANTS FROM INDOOR WORSHIP SERVICES.. ........ 19

III.

THE BALANCE OF HARDSHIPS TIPS IN THE CHURCHES’ FAVOR ................. 20

IV.

AN INJUNCTION IS IN THE PUBLIC INTEREST................................................. 21

V.

IN THE ALTERNATIVE, THE COURT SHOULD ALSO GRANT CERTIORARI
BEFORE JUDGMENT……………………………………………………....22

CONCLUSION................................................................................................... 22

vi

INDEX OF EXHIBITS
EXHIBIT A – NINTH CIRCUIT’S ORDER DENYING THE
APPELLANTS’ EMERGENCY MOTION FOR INJUNCTION
PENDING APPEAL
EXHIBIT B – DISTRICT COURT’S ORDER GRANTING COUNTY’S
MOTION FOR LEAVE TO FILE A MOTION FOR
RECONSIDERATION AND STAYING THE ORDER
GRANTING IN PART THE PLAINTIFFS’ EMERGENCY
MOTION TO ENJOIN STATE AND COUNTY COVID 19
RESTRICTIONS PENDING INTERLOCUTORY APPEAL
EXHIBIT C – DISTRICT COURT’S ORDER GRANTING IN PART
PLAINTIFFS’ EMERGENCY MOTION TO ENJOIN STATE
AND COUNTY COVID 19 RESTRICTIONS PENDING
INTERLOCUTORY APPEAL
EXHIBIT D – DISTRICT COURT’S DECISION GRANTING IN PART
AND DENYING IN PART PLAINTIFFS’ MOTION FOR A
PRELIMINARY INJUNCTION
EXHIBIT E – SANTA CLARA COUNTY PUBLIC HEALTH
DIRECTIVE: CAPACITY LIMITATIONS
EXHIBIT F – SANTA CLARA COUNTY PUBLIC HEALTH
DIRECTIVE: GATHERINGS

vii

TABLE OF AUTHORITIES
CASES
Am. Trucking Associations, Inc. v. Gray, 483 U.S. 1306 (1987) ..................................... 10
College Republicans at San Francisco State University v. Reed, 523 F. Supp. 2d 1005
(N.D. Cal. 2007) ........................................................................................................ 20
Church of Lukumi Babalu Aye v. City of Hialeah, 508 U.S. 530 (1993) ........ 12-13, 18-19
de Jesus Ortega Melendres v. Arpaio, 695 F.3D 990 (9th Cir. 2012) ............................... 21
Elrod v. Burns, 427 U.S. 347 (1976) ............................................................................... 19
McDaniel v. Paty, 435 U.S. 618 (1978) ...................................................................... 12-13
Sammartano v. First Jud. Dist. Ct., 303 F.3d 959 (9th Cir. 2002) ................................. 20
South Bay United Pentecostal Church v. Gavin Newsom, 590 U.S. __ (2020)................... 16
South Bay United Pentecostal Church, et al. v. Newsom, 592 U.S. ___
(Feb. 5, 2021) No. 20A136 (20-746) ...................................................................passim
Roman Catholic Diocese of Brooklyn v. Cuomo, 590 U.S. __ (2020) ...........................passim
Turner Broadcasting System, Inc. v. FCC, 507 U.S. 1301(1993) ..................................... 10
W. Va. State Bd. of Educ. v. Barnette, 319 U.S. 624 (1943) ........................................... 20
STATUTES
28 U.S.C. § 1651 .............................................................................................................. iv
28 U.S.C. § 2101………………………………………………………………22

viii

RULES
Sup. Ct. Rule 20 ................................................................................................................ 1
Sup. Ct. Rule 22 ................................................................................................................ 1
Sup. Ct. Rule 23 ................................................................................................................ 1
Sup. Ct. Rule 29.6 ..............................................................................................................ii

ix

TO THE HONORABLE ELENA KAGAN, ASSOCIATE JUSTICE OF THE
SUPREME COURT AND CIRCUIT JUSTICE FOR THE NINTH
CIRCUIT:
Pursuant to Rules 20, 22, and 23 of the Rules of this Court, and 28 U.S.C. §
1651, Appellants-Applicants Gateway City Church, The Home Church, The Spectrum
Church, Orchard Community Church, and Trinity Bible Church (“Churches”)
respectfully request a writ of injunction precluding enforcement against them of a
public health order prohibiting indoor gatherings for worship services by the County
of Santa Clara and the Santa Clara County Health Officer, Sara H. Cody, M.D.
(collectively “County”).
The Supreme Court handed down an order in the case South Bay United
Pentecostal Church, et al. v. Newsom, 592 U.S. ___ (Feb. 5, 2021) No. 20A136 (20-746)
(South Bay II) after the District Court issued an order denying a request for a
preliminary injunction against the 0% capacity restriction on houses of worship by
both the State and County Defendants. The Churches submitted a notice of the
recent decision in South Bay II to supplement their emergency motion in the District
Court for an injunction pending interlocutory appeal. The District Court granted that
motion as to both the State and County Defendants requiring them to allow the
Churches to meet at 25% capacity which was consistent with the Supreme Court’s
order in South Bay II. The State Defendants complied with this Court’s order in South
Bay II, allowing houses of worship to meet at 25% capacity. But the next day the
County issued a public health order allowing indoor worship services at only 20%
1

capacity. That same day the County filed a motion seeking reconsideration. This
motion was granted by the District Court the following evening, further staying its
prior order on the injunction pending appeal. The following day the County reposted
a public health order which provides in pertinent part as follows:
Business/Entity/Activity
Type
Gatherings (e.g., political
events, weddings, funerals,
worship services, movie
showings, cardroom
operations)

Indoors

Outdoors

Prohibited

Allowed up to 200 people per
gathering, but subject to the
limitations set forth by the
State, which generally prohibit
all gatherings except religious
services, cultural ceremonies,
political protests, other
gatherings allowed by a State
guidance document, and
outdoor gatherings of up to 3
households.

The County public health order allows houses of worship to meet at 20% capacity for
any purpose except worship services.
An emergency motion pending appeal was submitted to the Ninth Circuit’s
motions panel to compel the County to allow the Churches to meet on Sunday at
25% capacity per South Bay II. The Ninth Circuit denied the motion on Friday
evening (Feb. 12). (Since the State Defendants have complied with this Court’s 25%
capacity order, they are not the subject of this application).
In a state stretching nearly 800 miles, all houses of worship are allowed to meet
at 25% capacity. The lone exception is Santa Clara County where there remains a 0%
capacity allowance for indoor worship services. Therefore, the Churches respectfully

2

request that this Circuit Justice grant the emergency application for writ of injunction
or refer this application to the Court. In the alternative, the applicants request the
granting of certiorari before judgment or summary reversal.
INTRODUCTION
Despite the South Bay II ruling by the Supreme Court which reopened houses
of worship to 25% capacity from the Mexican border to Oregon, the County of Santa
Clara sits as an island of tyranny with a 0% capacity for indoor worship services. By
this application, the Churches seek to join the rest of the faithful across the State to
worship God this Sunday, February 21, or as soon thereafter as this matter can be
heard.
SUMMARY OF THE ARGUMENT
For purposes of clarity, this motion seeks immediate relief from the County’s
order, rather than the State’s order. The County public health order provides that
“gatherings” which are “worship services” are prohibited indoors. Numerous other
entities and activities which were the subject of the Supreme Court’s decision in South
Bay II are allowed in the County at 20%. These are: grocery and retail stores,
personal care businesses (e.g., hair salons, nail care, tattoo and body art, skin care,
waxing and hair removal), other “non-essential limited services” (e.g., pet grooming
and shoe repair), indoor public transit waiting areas, all other essential and critical
infrastructure facilities (including government facilities), and any other facility

3

allowed to open to the public under State and County orders. Exh. E at 2.
The lower courts committed error by finding the County’s orders to be a
neutral law of general applicability and thus measuring it under rational basis. Because
the County orders (1) enumerate religious conduct (worship services) and (2) allow for
other types of activities and entities to meet at 20% and churches at 0% capacity for
indoor worship services, strict scrutiny review is triggered.
In addition, airport gates are similar comparators to places of worship in terms
of time (45-90 minutes), physical space at the gate, and number of persons gathered
(100-400 people). The lower court asserted that an airport is not a gathering under the
County’s boutique definition of that term: “bringing together multiple people from
separate households in a single space . . . at the same time and in a coordinated
fashion.” Exh. F. The Churches disagree. Persons at airport gates fall within that
meaning because there are multiple people from separate households at the same time
for coordinated activity. It is difficult to conceive of a more coordinated gathering
than waiting for a flight. In sum, the exemption for airports is not a generally
applicable law.
In view of the Supreme Court’s decision last week in South Bay II, and that
houses of worship are meeting at 25% throughout California – except for Santa Clara
County – the lower courts committed indisputable error. The harm to the Churches
is profound and irreparable. Immediate relief is needed. The Churches have been
closed for the better part of a year, and it is in the public interest that they be able to
4

join houses of worship across California this weekend for religious worship.
SUMMARY OF FACTS AND PROCEDURAL HISTORY
General Litigation Challenge
The Churches challenge California’s 4-tier Blueprint for a Safer Economy and
the County’s public health order (Exh. D, Order at 6), both of which completely
prohibit indoor gatherings of groups of people for worship. The Churches are
located in Santa Clara County, California, and they include thousands of residents
who worship in their sanctuaries. They conduct worship services for their
congregations each weekend which commonly include the common elements of
prayer, reading from sacred texts, music, Holy Communion, and the delivery of a
sermon. Like most churches in the Christian faith, such services have been practiced
at all times and all places for nearly two millennia without interruption. That is, until
now.
Governor Gavin Newsom proclaimed a state of emergency on March 4, 2020,
in response to the novel coronavirus (“COVID 19”). The Governor issued Executive
Order N-33-20 on March 19, which incorporates an order of the State Public Health
Officer and mandates, in pertinent part:
all individuals living in the State of California to stay home or at their place
of residence except as needed to maintain continuity of operations of the
federal
critical
infrastructure
sectors
as
outlined
at
https://www.cisa.gov/identifying-critical-infrastructure-during-covid-19.
The following month the State clarified that “critical infrastructure” generally included

5

Transportation and Logistics, creating a specific exception to the stay at home order
for airports. 1 Places of worship are not listed as essential. Instead, under a complex
4-tier system called “Blueprint For A Safer Economy,” places of worship are either (1)
banned from meeting in their sanctuaries (Purple Tier 1), (2) are significantly
restricted to the lesser of 100 persons or 25% capacity (Red Tier 2), (3) are restricted to
the lesser of 200 persons or 50% (Orange Tier 3), or (4) 50% maximum capacity (Yellow
Tier 4). 2 There is no green tier where religious assemblies can gather indoors at full
capacity. Per Executive Order N-33-20, the State system also allows local public
health officials to subject places of worship to even greater restrictions.
The County did just that. The Santa Clara Director of Public Health forced
worshipers outdoors into the heat and smoke of summer and the cold and rain of
autumn and winter.
Challenge to County Orders Relevant to this Application
The County promulgated a public health order addressing worship services in
its Capacity Directive (Exh. E), which is the subject of this application, and reads, 3
Business/Entity/Activity
Type
Gatherings (e.g., political
events, weddings, funerals,

Indoors

Outdoors

Prohibited

Allowed up to 200 people per
gathering, but subject to the

Id., at p. 10 TRANSPORTATION AND LOGISTICS.
Industry Guidance to Reduce Risk – Places of worship and cultural ceremonies (updated Nov. 6,
2020). Accessed at https://covid19.ca.gov/industry-guidance/#worship
3
Except for a 48-hour period of time when the District Court enjoined the County
pursuant to South Bay II requiring a 25% capacity allowance for places of worship, this
essential rule has been in place.
1
2

6

worship services, movie
showings, cardroom
operations)

limitations set forth by the
State, which generally prohibit
all gatherings except religious
services, cultural ceremonies,
political protests, other
gatherings allowed by a State
guidance document, and
outdoor gatherings of up to 3
households.

Numerous other business/entity/activity types are allowed at 20% capacity. These
include: grocery and retail stores, personal care businesses (e.g., hair salons, nail
care, tattoo and body art, skin care, waxing, and other hair removal), other “nonessential limited services” (e.g., pet grooming and shoe repair), indoor public transit
waiting areas, all other essential and critical infrastructure facilities (including
government facilities), and any other facility allowed to open to the public under
State and County orders. Exh. E at 2.
What is more, the County’s Gathering Directive creates its own bespoke definition
of gathering:
A “gathering” is an event, assembly, meeting, or convening that brings
together multiple people from separate households in a single space,
indoors or outdoors, at the same time and in a coordinated fashion—like
a wedding, banquet, conference, religious service, festival, fair, party,
performance, competition, movie theater operation, fitness class,
barbecue, protest, or picnic. Exh. F at 2; Exh. D, Order at 27.
Of note, airports are exempted from the definition. The County Public Health
Director explained:
As many public health officials have noted, airports present an elevated
risk of exposure to COVID-19 given the number of people passing
through from different locations.…[T]he Public Health Department is
7

not currently recommending closure of the airport given the significant
societal harms lack of access to travel would cause.4
Of note, all parts of the County, whether incorporated or not, are under the
jurisdiction of the Santa Clara Public Health Department.5 Mineta San Jose
International Airport is within that jurisdiction and hosts large gatherings of travelers
from all over the world in the seating areas of 30 gates in 2 terminals.
Most churches were initially cooperative with State and County officials
because they were led to believe that the restrictions on worship would be a
temporary 14-day burden. Instead, the State and County have engaged in a pattern
and practice that continually stretches the ban on those who congregate for sacred
purposes. This has gone on for nearly a year with no foreseeable end to the County’s
orders that prohibit indoor worship, i.e., “This ordinance shall stay in full force and
effect until repealed by the Board of Supervisors.”6
In recent months, County officials have monitored, harassed, sued, and fined
houses of worship for violating worship restrictions. As their buildings sit abandoned
and their liberties under the Bill of Rights continue to be subject to suspension, the
Churches have lost patience and seek redress from the courts.

4

“County of Santa Clara Public Health Department: Statement Regarding COVID-19 and
Airports.” Mar. 11, 2020. Accessed at https://www.sccgov.org/sites/phd/news/Pages/covid-19airports.aspx
5
Santa Clara County Ordinance NS 9.921. (Aug. 11, 2020) Accessed at
https://www.sccgov.org/sites/covid19/Documents/ordinance-ns-9-291.pdf.
6

Santa Clara County Ordinance NS 9.921, EXPIRATION §14.

8

Relevant Procedural History
The Churches filed a motion for preliminary injunction. On January 29 the
District Court issued an Order granting the motion enjoining enforcement of the
State Defendants’ 100- and 200-person capacity limits for places of worship in Red
Tier 2 and Orange Tier 3 but not the percentage based capacity limitations of any tier.
The District Court denied the motion as to the complete ban on indoor worship
services under Purple Tier 1. Injunctive relief against the Santa Clara County
Defendants’ restrictions on gatherings was also denied. Exh. D.
The Churches filed a notice of interlocutory appeal to address those portions
of the District Court order denying preliminary injunctive relief (Feb. 1). A motion
for injunction pending appeal was filed on February 2. While that motion was
pending, on February 5 the Supreme Court reversed the Ninth Circuit in South Bay II.
A notice of recent decision was filed with the District Court by the Churches on
Saturday, February 6. On Monday, February 8, the District Court granted the
Churches’ motion enjoining both the State and County Defendants, allowing the
Churches to meet at 25% capacity in compliance with South Bay II. Exh. C. The
County changed its public health order to allow places of worship to meet, but only at
20% capacity. However, the County filed a motion seeking leave for reconsideration
in the District Court that same day (Feb. 9). Late on the night of February 10, the
District Court reversed itself and stayed its order granting the Churches an injunction
9

pending appeal. Exh. B. The next day (Feb. 10), the County rescinded its 20%
gathering rule for places of worship and set them back to 0% capacity for indoor
worship services. An emergency motion seeking a stay was filed with the Ninth
Circuit’s motion panel (Feb. 11). Late Friday (Feb. 12) the Ninth Circuit denied the
motion. Exh. A.
REASONS FOR GRANTING THE APPLICATION
When the legal rights in an application are indisputably clear, a Circuit Justice
has authority to provide the requested relief. Turner Broadcasting System, Inc. v. FCC,
507 U.S. 1301, 1302 (1993) (Rehnquist, C.J., in chambers). During the last three
months, the Supreme Court has issued two pinpoint decisions removing any doubt
that public health orders placing religious institutions or activities in a disfavored
position are not neutral or generally applicable and must be reviewed under strict
scrutiny. Roman Catholic Diocese of Brooklyn v. Cuomo, 590 U.S. __, 14 S.Ct. 63 (2020) and
South Bay II. Further, in addition to the nearly identical legal premises at issue, this
application sits in the same procedural posture as the religious institutions in Roman
Catholic Diocese of Brooklyn v. Cuomo and South Bay II, in that both were brought as
emergency applications. Roman Catholic Diocese of Brooklyn v. Cuomo, 14 S.Ct. at 65,
South Bay II at ___. Moreover, there is a significant possibility that this Court would
grant certiorari and reverse because the violation of the Churches’ right is indisputably
clear. Am. Trucking Associations, Inc. v. Gray, 483 U.S. 1306, 1308 (1987).

10

I.

THE VIOLATION OF THE CHURCHES’ RIGHTS IS INDISPUTABLY CLEAR.
The Churches concede for purposes of this application that slowing the spread

of COVID 19 stands as an interest which is compelling. South Bay II, 592 U.S. ___
(2021) (Gorsuch, J., concurring). But the Bill of Rights cannot be placed on the
injured-reserved list to be brought back out on the civic field of play after the
pandemic is over. To the contrary, the liberties secured by the Constitution stand as
all the more precious when the nation faces crisis. The architects of our Constitution
knew that the faithful need the solace of their faith in perilous times. Article III
courts have a duty to jealously and zealously protect the peoples’ rights from the other
two branches of government and the States in times like these. Id. Since the
Thanksgiving holiday, this Court has twice intervened when religious institutions or
their activities appeared on government lists of the dangerous, the unessential, and the
unwanted. Because it is self-evident that nothing is more central to the life of a
religious congregation than its worship services, explicitly forbidding that most
meaningful weekly event fails the requisite of general applicability and neutrality.
Thus, it is indisputably clear that the lower courts failed to measure the County’s
public health order on the scales of strict scrutiny.
A. The County’s 0% capacity for indoor worship services is neither
neutral nor generally applicable.

11

At issue is whether the County public health orders completely prohibiting
indoor worship services are neutral laws of general applicability. Beginning with the
challenged text, the County has promulgated the Capacity Directive and Gathering
Directive. See Exhs. E at 2, F. The Capacity Directive reads in chart form as follows:
Business/Entity/Activity Indoors
Type
Gatherings (e.g., political
Prohibited
events, weddings, funerals,
worship services, movie
showings, cardroom
operations)

Outdoors
Allowed up to 200 people
per gathering, but subject
to the limitations set forth
by the State, which
generally prohibit all
gatherings except
religious services, cultural
ceremonies, political
protests, other gatherings
allowed by a State
guidance document, and
outdoor gatherings of up
to 3 households.

The District Court Order maintains that the Gathering Directive, under the
County Orders, “applies regardless of whether the event has a religious or secular
purpose” (Exh. D, Order at 27) and thus is subject to and survives rational basis
review. Id. at 28. Not true.
First, the Gathering Directive identifies a specific religious activity, i.e.,
“Gatherings – worship services.” The operative language of the County public health
order restricts a religious activity by explicit reference to the conduct’s sacred
character. McDaniel v. Paty, 435 U.S. 618 (1978). Because the restriction enumerates

12

religious practice, conduct, belief, or motivation “without a secular meaning
discernable from the language or context,” it falls short of “facial neutrality.” Church of
Lukumi Babalu Aye v. City of Hialeah, 508 U.S. 520, 533 (1993).
Second, the Gathering Directive subjects religious activities and entities to
especially harsh treatment in view of other businesses/entities/activities/types.
Consider these indoor examples:
• grocery and retail stores at 20% capacity – worship services 0%
• personal care businesses at 20% capacity – worship services 0%
• public transit waiting areas at 20% capacity – worship services 0%
• “non-essential” limited services at 20% capacity – worship services 0%
• all essential and critical infrastructure facilities and government facilities of any
kind at 20% capacity – worship services 0%
• any other facility allowed to open to the public under State and County orders
at 20% – worship services 0%
In addition to the above, airports operate at 100% capacity but indoor worship
services are banned. As recently explained, “When a State so obviously targets
religion for differential treatment, our job becomes that much clearer.” South Bay II,
592 U.S. ___ (Gorsuch, J., concurring).
Unlawful discrimination, which stands as the antithesis of neutrality, involves
making a distinction between a group of people, an entity, or related activity based

13

upon a protected characteristic (e.g., religion) coupled with the imposition of special
disabilities on that basis. Lukumi, 508 U.S. at 533 citing McDaniel, 435 U.S. 618 (1978).
In Lukumi, a municipality banned animal sacrifices. Here, the County bans indoor
worship services. This indisputably triggers strict scrutiny review. Roman Catholic
Diocese of Brooklyn v. Cuomo, 590 U.S. __ (2020) citing Lukumi, 508 U.S. at 543. “[I]t
does not suffice for a State to point out that, as compared to houses of worship, some
secular businesses are subject to similarly severe…treatment…Rather, once a State
creates a favored class of businesses…the State must justify why houses of worship
are excluded from that favored class.” Roman Catholic Diocese of Brooklyn v. Cuomo, 590
U.S. __ (Kavanaugh, J., concurring).
The lower courts committed error by viewing the Gathering Directive as “not
impos[ing] any express restrictions on ‘places of worship.’” Exh. D, Order at 26. This
reads “worship services” out of the text. The plain meaning of the Gathering
Directive is that it explicitly applies to worship services. It requires little explanation
that places of worship sit as the venue for worship services. Worship services are not
conducted at city hall, public transit waiting areas, or grocery stores. Rather, they
occur at churches, synagogues, temples, and mosques. Indeed, the Capacity Directive
states that under its boutique definition, prohibited indoor “gatherings” explicitly
includes “worship services.” Exh. E. What is more, the Gathering Directive most
clearly gives preferential treatment to a host of other activities. Many of these are the
very ones that the Supreme Court found problematic in Roman Catholic Diocese of
14

Brooklyn v. Cuomo and South Bay II, e.g., grocery stores, transportation facilities, liquor
stores, airports, body piercing, and hair salons.
Turning specifically to airports, the allowance for 100% capacity is particularly
troubling because these restrictions are underinclusive. The District Court’s analysis
in this regard is not convincing. The Court Order states that groups of people
awaiting flights at airport gates do not fall under the definition of a “gathering”
because they do not “bring[] together multiple people from separate households in a
single space . . . at the same time and in a coordinated fashion.” Exh. D, Order at 27,
quoting the Gathering Directive.
There are two primary problems with this. First, the definition of “gathering”
that the County has created excludes activities and entities which the Supreme Court
has found to be proper comparators to places of worship, e.g., big box stores, retail,
grocery, personal services, transportation, and airports. The County’s essential
strategy is: “We’re going to say those gatherings aren’t ‘gatherings’ according to our
self-created definition.”
What is more is that exempting airports from gatherings as the County defines
it is inconsistent with its own definition -- the “bringing together [of] multiple people
from separate households in a single space . . . at the same time and in a coordinated
fashion.” Exh. F. This is exactly what occurs at the gate of an airport. Passengers,
typically from multiple separate households, are explicitly directed to a given gate to
wait in a designated area for a scheduled, coordinated departure; this is the very
15

definition of a “gathering” under the Gathering Directive as contained within the
County Orders. Id.
Congregants at a worship service and passengers at a gate not only both fall
within the operational definition of the Gathering Directive, but also are remarkably
similar in terms of the number of people present (100-400 people), the time seated
together (approximately one hour), and the nearness of physical proximity due to that
seating. In his concurrence denying emergency relief in a challenge to the State’s
restrictions on gatherings at houses of worship – restrictions far less draconian than
those at issue here -- Chief Justice Roberts explained that the crucial inquiry is
whether there is a comparable secular gathering where “large groups of people gather
in close proximity for extended periods of time.” South Bay United Pentecostal Church v.
Gavin Newsom, 590 U.S. __ (2020); 140 S.Ct. 1613, 1614 (Roberts, C.J., concurring in
denial of application for injunctive relief) (South Bay I). Of course, since South Bay I
two other Supreme Court decisions (Roman Catholic Diocese of Brooklyn v. Cuomo and
South Bay II) have greatly broadened the scope of comparators.
What is more, the record is clear that at the time the County promulgated the
Gathering Directive, it never claimed that an airport falls outside of the definition.
Instead, the County exempted airports from its definition of gatherings. “[T]he Public
Health Department is not currently recommending closure of the airport given the

16

significant societal harms lack of access to travel would cause… .”7 The evidence is
not subject to reasonable dispute that airports were not exempted because they are
safe. They were exempted because the State and County considered them essential or
critical entities. This is admitted. Airports were left open “given the significant
societal harms lack of access to travel would cause.” 8 But “once [the government]
creates a favored class of businesses…[it] must justify why houses of worship are
excluded from that favored class.” Roman Catholic Diocese of Brooklyn v. Cuomo, 590 U.S.
__ (2020) (Kavanaugh, J., concurring). This leads to the indisputable conclusion that
strict scrutiny must apply to the County’s Capacity Directive and Gathering Directive.
B. Use of the wrong legal standard by the lower courts is a sufficient
ground to grant the application until the County carries its legal burden.
The lower court’s application of rational basis review was indisputable error.
Because strict scrutiny review applies, the County must prove a compelling interest.
As conceded in the courts below, slowing the spread of the pandemic is a compelling
interest. But the burden remains for the County to prove that its rules are narrowly
tailored and the means are the least restrictive on the liberty interests of the Churches.
Roman Catholic Diocese of Brooklyn v. Cuomo, 590 U.S. __ (2020). Because the lower

“County of Santa Clara Public Health Department: Statement Regarding COVID-19
and Airports.” Mar. 11, 2020. Accessed at
https://www.sccgov.org/sites/phd/news/Pages/covid-19-airports.aspx.
8
Id.
7

17

courts used the wrong standard of review, the writ of injunction should be granted
until the County carries its legal burden.
The County cannot do so because of the exemptions for numerous businesses
and airport gates. Orders allowing gatherings at departure gates and other business
activities but restricting religious assemblies fail to meet the narrowly tailored
requirement for the same reason that the orders are not generally applicable. The
stated purpose of the County’s Capacity Directive and Gathering Directive is to
prevent the spread of a contagious disease. Despite this claim, the County allows the
public to congregate as passengers at the gate of an airport but restricts those same
persons from congregating at a church as worshipers. The County also allows the
public to be at a variety of entities to conduct business at 20% capacity but limits
worship services at places of worship to 0% capacity. See Lukumi, 508 U.S. at 543
(“The principle that government, in pursuit of legitimate interests, cannot in a
selective manner impose burdens only on conduct motivated by religious belief is
essential to the protection of the rights guaranteed by the Free Exercise Clause.”).
Specifically, as to airports, there is no claim by the County, nor can there be,
that congregating at airports is safe whereas gathering at a place of worship is not.
Just five days before the issuance of the first County worship ban and the shuttering
of churches, the County Public Health Director released a statement directly
addressing airports: “As many public health officials have noted, airports present an
18

elevated risk of exposure to COVID-19 given the number of people passing
through from different locations.” 9
Here the County’s orders related to gatherings “fail to prohibit nonreligious
conduct” at the airport or other businesses “that endangers these [public health]
interests in a similar or greater degree” than the religious conduct of sitting in a
church. Lukumi, 508 U.S. at 543. The public health orders that have left church
buildings abandoned throughout the County are underinclusive and thus fall short of
the requirements for narrow tailoring.
II.

THE CHURCHES FACE IRREPARABLE HARM BY THE CONTINUED
EXCLUSION OF CONGREGANTS FROM INDOOR WORSHIP SERVICES

The Churches have endured eleven months with only the slimmest of
opportunities to gather indoors for worship services. Absent immediate judicial relief,
by the time briefing is completed at the end of March on the interlocutory appeal, the
Churches will have sat mostly empty for a year. “The deprivation of First
Amendment freedoms, for even minimal periods of time, unquestionably constitutes
irreparable injury.” Elrod v. Burns, 427 U.S. 347, 373 (1976). As stated in their
numerous declarations without objection or dispute, the Churches are mandated by
Scripture to meet in-person for corporate worship, prayer, fellowship, and
communion. Watching online services is not sufficient. Streaming a prayer service

CPHD Statement Regarding Airports (Mar. 11, 2020) (emphasis added). Accessed at
https://www.sccgov.org/sites/phd/news/Pages/covid-19-airports.aspx

9

19

cannot be an adequate substitute for in-person worship any more than streaming
MasterChef can be an adequate substitute for sitting down to a meal. Without
injunctive relief, the Churches will continue to struggle to meet with severe
restrictions and the continued threat of civil and criminal penalties.
III.

THE BALANCE OF HARDSHIPS TIPS SHARPLY IN THE CHURCHES’ FAVOR.
The balance of equities tips sharply in the Churches favor, as there is no

substitute for in-person religious worship and the freedom to assemble peacefully is a
core constitutional right. Given their showing of the invalidity of the public health
orders, the Churches necessarily have demonstrated that leaving those orders in place
for even a brief period of time “substantially chill[s] the exercise of fragile and
constitutionally fundamental rights,” for many thousands of parishioners who attend
the Churches and thereby constitutes an intolerable hardship. College Republicans at San
Francisco State University v. Reed, 523 F. Supp. 2d 1005, 1011 (N.D. Cal. 2007) (citing
Sammartano v. First Jud. Dist. Ct., 303 F.3d 959, 973-74 (9th Cir. 2002). This is all the
more true as the one-year anniversary of the suspension of the Churches’ First
Amendment rights approaches.
The Churches do not question the importance of health and safety. The
Churches do question, however, the means by which that end is achieved – “an end
which officials may foster by persuasion and example is not in question. The problem
is whether under our Constitution compulsion as here employed is a permissible
means for its achievement.” W. Va. State Bd. of Educ. v. Barnette, 319 U.S. 624, 640
20

(1943). The Churches continue to face extreme restrictions on their ability to gather
for worship services.
The County would not need to be exposed to meaningful harm as a result of
injunctive relief. Moreover, public health officials can still impose reasonable health
and safety requirements like they do for numerous entities and activities. The
Churches are prepared to follow all reasonable safety precautions equal to those
imposed on others. “California already trusts its residents and any number of
businesses to adhere to proper social distancing and hygiene practices.” South Bay I at
1615 (Kavanaugh, J., dissenting). If the County allowed church services, the impact
on public health would, at best, be less than and, at worse, be identical to, the impact
currently experienced by allowing “essential” and “non-essential” businesses and
activities to operate at 20% capacity or by allowing mass gatherings at airport gates.
IV.

AN INJUNCTION IS IN THE PUBLIC INTEREST
The County has proffered no proof, nor can it, that attendance at the applicant

Churches spreads COVID 19. Roman Catholic Diocese of Brooklyn v. Cuomo, 592 U.S.
___ (2020). Further, the free exercise of religion and peaceful assembly are core
constitutional rights under the First Amendment. “It is always in the public interest
to prevent the violation of a party’s constitutional rights.” de Jesus Ortega Melendres v.
Arpaio, 695 F.3d 990, 1002 (9th Cir. 2012) (internal quotation marks omitted). As the
County’s District Attorney Ms. Alvarado stated, “I don’t feel comfortable being in

21

that position of saying, ‘You know, your constitutional rights don’t really matter right
now,’ but I’ve had to.”10 After eleven months, “it is time -- it is past time” (Roman
Catholic Diocese of Brooklyn v. Cuomo, (Gorsuch, J., concurring) for these Churches to be
able to meet this weekend in a manner consistent with the 25% capacity the Supreme
Court granted to the rest of California in South Bay II.
V. IN THE ALTERNATIVE, THE COURT SHOULD ALSO GRANT CERTIORARI
BEFORE JUDGMENT.
In the alternative to entering an injunction pending appeal, the Court should
grant certiorari before judgment in the Court of Appeals and enjoin the Governor’s
actions pending disposition by this Court. See 28 U.S.C. § 2101(e). Religiously
discriminatory COVID-19 restrictions are an ongoing problem of nationwide scope—
yet without prompt action the Court will be unable to give additional guidance on these
issues until next Term.

CONCLUSION

In frustration, Justice Gorsuch wrote, “Today’s order should have been
needless; the lower courts in these cases should have followed the extensive guidance
this Court already gave.” South Bay II, (Gorsuch, J., concurring). The Churches share
that frustration. Enforced by seven-figure administrative fines and the threat of
prosecution and incarceration, the County continues to place governmental restraints

Katey Rusch. “How Do You Enforce a Law That Tramples the Land of the Free?”
The New York Times, May 11, 2020, quoting Santa Clara County Deputy District
Attorney, Angela Alvarado. Accessed at
https://www.nytimes.com/2020/05/11/us/coronavirus-california-lockdowns.html.

10

22

on First Amendment liberties never seen or imagined in this nation prior to 2020. As
articulated, perhaps ironically, by the Santa Clara County Deputy District Attorney,
“Right now we’re putting parts of the Constitution on hold. We really are. Freedom
of assembly. Right to practice religion.” 11 By this application, the Churches seek the
restoration of those rights to open their doors this Sunday and grant the emergency
application for writ of injunction. In the alternative, the applicants request the
granting of certiorari or summary reversal.
Dated: February 16, 2021

s/ Kevin Snider
Kevin T. Snider, Counsel of record
Emily C. Mimnaugh
PACIFIC JUSTICE INSTITUTE
P.O. Box 276600
Sacramento, CA 95827
Tel. (916) 857-6900
E-mail: ksnider@pji.org
emimnaugh@pji.org
Sharonrose Cannistraci
CANNISTRACI LAW FIRM
236 N. Santa Cruz, Ave., Suite 217
Los Gatos, California 95030
Tel. (408) 307-5662
E-mail: cannistracilaw@gmail.com
Marlis McAllister
McALLISTER LAW GROUP
P.O. Box 756
Pine Grove, CO 80470
Tel. (650) 346-3792
E-mail: marlis@mcallisterlaw.net

Id.

11

23

EXHIBIT A

Case: 21-15189, 02/12/2021, ID: 12003104, DktEntry: 9, Page 1 of 3

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

FILED
FEB 12 2021
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

GATEWAY CITY CHURCH; et al.,
Plaintiffs-Appellants,
v.
GAVIN NEWSOM; et al.,

No. 21-15189
D.C. No. 5:20-cv-08241-EJD
Northern District of California,
San Jose
ORDER

Defendants-Appellees.
Before: CANBY, GRABER, and FRIEDLAND, Circuit Judges.
This appeal challenges the district court’s January 29, 2021 order denying in
part appellants’ motion for a preliminary injunction. Appellants move for an
injunction pending appeal, seeking to prohibit the enforcement of Santa Clara
County, California’s restrictions on indoor gatherings as applied to their places of
worship.
“The standard for evaluating an injunction pending appeal is similar to that
employed by district courts in deciding whether to grant a preliminary injunction.”
Feldman v. Ariz. Sec’y of State’s Office, 843 F.3d 366, 367 (9th Cir. 2016); see
also Winter v. Nat. Res. Def. Council, Inc., 555 U.S. 7, 20 (2008) (stating
standard). We review the district court’s denial of a preliminary injunction for
abuse of discretion, although we review de novo the district court’s interpretation

LCC/MOATT

Case: 21-15189, 02/12/2021, ID: 12003104, DktEntry: 9, Page 2 of 3

of the underlying legal principles. See Sw. Voter Registration Educ. Project v.
Shelley, 344 F.3d 914, 918 (9th Cir. 2003).
On the basis of the record before us, we conclude that appellants have not
demonstrated a sufficient likelihood of success on the merits to warrant injunctive
relief pending appeal. See Winter, 555 U.S. at 20.
The challenged ban on indoor “gatherings” currently in effect for Santa
Clara County applies equally to all indoor gatherings of any kind or type, whether
public or private, religious or secular. The Directive, which appears to affect far
more activities than most other jurisdictions’ health measures, does not “single out
houses of worship” for worse treatment than secular activities. See Roman
Catholic Diocese of Brooklyn v. Cuomo, 141 S. Ct. 63, 66 (2020). Nor does the
Directive affect whether appellants may continue to remain open for purposes that
do not involve “gatherings.”
Accordingly, appellants have not demonstrated that the district court likely
erred in determining that the County’s prohibition on indoor gatherings is a neutral
law of general applicability and therefore properly subject to rational basis review.
See S. Bay United Pentecostal Church v. Newsom, No. 20A136, 2021 WL 406258,
at *1 (U.S. Feb. 5, 2021) (Barrett, J., concurring) (observing that where a ban on
prohibited conduct “applies across the board,” it “thus constitutes a neutral and
generally applicable law”).

LCC/MOATT

2

21-15189

Case: 21-15189, 02/12/2021, ID: 12003104, DktEntry: 9, Page 3 of 3

Appellants’ emergency motion for injunctive relief pending this appeal
(Docket Entry No. 6) is therefore denied.

LCC/MOATT

3

21-15189

EXHIBIT B

Case 5:20-cv-08241-EJD Document 79 Filed 02/10/21 Page 1 of 2

1
2
3
4

UNITED STATES DISTRICT COURT

5

NORTHERN DISTRICT OF CALIFORNIA

6

SAN JOSE DIVISION

7
8

GATEWAY CITY CHURCH, et al.,

Case No. 5:20-cv-08241-EJD

Plaintiffs,
9

ORDER GRANTING MOTION FOR
LEAVE TO FILE A MOTION FOR
RECONSIDERATION

v.
10
11

GAVIN NEWSOM, et al.,

Re: Dkt. No. 76

United States District Court
Northern District of California

Defendants.
12
13

On February 8, 2021, the Court granted Plaintiffs’ Emergency Motion for relief pending

14

appeal in light of the Supreme Court’s decision in South Bay United Pentecostal Church, et al. v.

15

Newsom, 592 U.S. ___ (Feb. 5, 2021) No. 20A136 (20-746) (South Bay II). Dkt. No. 75

16

(“February 8 Order”). On February 9, 2021, Defendants County of Santa Clara and County

17

Health Officer Dr. Sara H. Cody (collectively “County”) filed a Motion for Leave to File Motion

18

for Reconsideration of the Court’s February 8, 2021 Order. Dkt. No. 76 (“Motion for Leave”).

19

Later that day, Plaintiffs filed a Preliminary Opposition to the County’s Motion for Leave. Dkt.

20

No. 77 (“Preliminary Opposition”).

21

The County argues that this Court erred in relying on the Supreme Court decision in South

22

Bay II, which addressed the State’s restrictions, to enjoin the County’s restrictions on gatherings

23

because the County’s restrictions remain neutral and generally applicable. In their Preliminary

24

Opposition, Plaintiffs argue that a motion for reconsideration is procedurally improper under Civil

25

Local Rule 7-9(b). Under that rule, a motion for reconsideration is appropriate where “a material

26

difference in fact or law exists from that which was presented to the Court before entry of the

27

Case No.: 5:20-cv-08241-EJD
ORDER GRANTING MOTION FOR LEAVE TO FILE A MOTION FOR
RECONSIDERATION

28

1

Case 5:20-cv-08241-EJD Document 79 Filed 02/10/21 Page 2 of 2

1

interlocutory order for which reconsideration is sought.” Civil L.R. 7-9(b). Although South Bay

2

II was published before this Court’s February 8 Order, neither party had the opportunity to present

3

arguments related to the new precedent. Having considered the Motion for Leave and Preliminary

4

Opposition, the Court finds that further argument is warranted regarding how South Bay II affects

5

Plaintiffs’ request to enjoin the County restrictions.

6

The Court, therefore, orders as follows:

7

1. The County’s Motion for Leave is GRANTED.

8

2. Enforcement of the February 8 Order is STAYED until the County’s motion for

9

United States District Court
Northern District of California

10

reconsideration is resolved.
3. The Court deems the County’s Memorandum of Points and Authorities in Support of

11

the Motion for Leave as the County’s Memorandum of Points as Authorities in Support

12

of Reconsideration. Plaintiffs’ response to the motion for reconsideration shall be due

13

no later than March 8, 2021. The County’s reply, if any, shall be due no later than

14

March 12, 2021. A hearing on the motion is tentatively set for March 19, 2021 at 9:00

15

a.m. via Zoom videoconference.

16
17
18
19

IT IS SO ORDERED.
Dated: February 10, 2021
______________________________________
EDWARD J. DAVILA
United States District Judge

20
21
22
23
24
25
26
27
28

Case No.: 5:20-cv-08241-EJD
ORDER GRANTING MOTION FOR LEAVE TO FILE A MOTION FOR
RECONSIDERATION
2

EXHIBIT C

Case 5:20-cv-08241-EJD Document 75 Filed 02/08/21 Page 1 of 4

1
2
3
4

UNITED STATES DISTRICT COURT

5

NORTHERN DISTRICT OF CALIFORNIA

6

SAN JOSE DIVISION

7
8

GATEWAY CITY CHURCH, et al.,

Case No. 5:20-cv-08241-EJD

Plaintiffs,
9

ORDER GRANTING IN PART
PLAINTIFFS’ EMERGENCY MOTION
TO ENJOIN STATE AND COUNTY
COVID-19 RESTRICTIONS PENDING
INTERLOCUTORY APPEAL

v.
10
11

GAVIN NEWSOM, et al.,

United States District Court
Northern District of California

Defendants.

Re: Dkt. No. 47

12
13
14

Plaintiffs Gateway City Church, The Home Church, The Spectrum Church, Orchard

15

Community Church, Trinity Bible Church (collectively “Plaintiffs”) move to enjoin the State and

16

County’s enforcement of restrictions on indoor worship services or, alternatively, for immediate

17

relief in the form of a temporary injunction of seven days to enable Plaintiffs to file a motion with

18

the Ninth Circuit. Dkt. No. 67 (“Emergency Motion”). The State and the County filed separate

19

responses opposing the Emergency Motion. Dkt. Nos. 71, 72.

20

On January 29, 2021, this Court issued an Order granting in part and denying in part

21

Plaintiffs’ Motion for a Preliminary Injunction seeking relief from the same restrictions. Dkt. No.

22

64 (“Order”). Specifically, this Court enjoined the 100-person capacity limit for places of worship

23

in Tier 2 and the 200-person capacity limit in Tier 3 of the State’s Blueprint but not the percentage

24

based capacity limitations of any tier, nor the prohibition on indoor worship under Tier 1. See

25

Order at 29. The Court further enjoined the State from enforcing the Blueprint’s restrictions on

26
27

Case No.: 5:20-cv-08241-EJD
ORDER GRANTING IN PART PLAINTIFFS’ EMERGENCY MOTION TO ENJOIN STATE
AND COUNTY COVID-19 RESTRICTIONS PENDING INTERLOCUTORY APPEAL

28
1

Case 5:20-cv-08241-EJD Document 75 Filed 02/08/21 Page 2 of 4

1

activities at places of worship other than worship services, except to the extent that it enforces

2

such restrictions against secular businesses or activities. Relying in part on the decision of the

3

Court of Appeals for the Ninth Circuit in South Bay United Pentecostal Church v. Newsom, No.

4

20- 56358, 2021 WL 222814 (9th Cir. Jan. 22, 2021) (South Bay), the Court denied the

5

preliminary injunction in all other respects, finding that Plaintiffs were unlikely to succeed on the

6

merits of their Free Exercise claim because the State and County restrictions were likely to survive

7

strict scrutiny.

8

United States District Court
Northern District of California

9

On February 5, 2021, the United States Supreme Court granted an application for
injunctive relief pending disposition of the petition for a writ of certiorari in South Bay United

10

Pentecostal Church, et al. v. Newsom, 592 U.S. ___ (Feb. 5, 2021) No. 20A136 (20-746) (South

11

Bay II). The decision reverses in part the decision of the Ninth Circuit in South Bay. Specifically,

12

the Supreme Court enjoined the State from enforcing the Blueprint’s Tier 1 prohibition on indoor

13

worship services against the applicants in that case, but left in place the State’s percentage

14

capacity limitations and the prohibition on singing and chanting indoor. The statement of Justice

15

Gorsuch, with whom a majority of the justices join or concur, found that the State restrictions

16

failed strict scrutiny because “the State fails to explain why narrower options it finds sufficient in

17

secular contexts do not satisfy its legitimate interests” in religious contexts. See, e.g., id. at 4

18

(“The State does not force [hairstylists or manicurists] or retailers to do all their business in

19

parking lots and parks. And California allows people to sit in relatively close proximity inside

20

buses too.”).

21

Justice Gorsuch went on to find that the State’s ban on indoor singing and chanting

22

similarly failed to survive strict scrutiny, in part because the ban did not appear to apply to the

23

entertainment industry. Id. at 5 (“once more, we appear to have a State playing favorites during a

24

pandemic, expending considerable effort to protect lucrative industries (casinos in Nevada; movie

25

studios in California) while denying similar largesse to its faithful.”). Justices Barrett and

26
27

Case No.: 5:20-cv-08241-EJD
ORDER GRANTING IN PART PLAINTIFFS’ EMERGENCY MOTION TO ENJOIN STATE
AND COUNTY COVID-19 RESTRICTIONS PENDING INTERLOCUTORY APPEAL

28
2

Case 5:20-cv-08241-EJD Document 75 Filed 02/08/21 Page 3 of 4

1

Kavanaugh diverged from Justice Gorsuch on this point, finding that there was not enough

2

evidence in the record to support the claim that the entertainment industry was exempt from the

3

singing ban.

4

In light of the Supreme Court’s decision, this Court GRANTS Plaintiffs’ Emergency

5

Motion in part. As the Supreme Court set forth, the State shall be enjoined from enforcing against

6

Plaintiffs the prohibition of indoor worship, currently applicable under Tier 1 of the Blueprint.

7

This Court’s previously issued injunction against the numerical capacity limitations remains in

8

effect, however, nothing in this order nor in South Bay II prevents the State from imposing a 25%

9

capacity limitation on indoor worship services in any Tier.

United States District Court
Northern District of California

10

South Bay II did not consider the County restrictions that are also at issue in this case. This

11

Court previously held that the County restrictions were subject to a rational basis review because

12

the County’s ban on indoor gatherings is facially neutral towards religion and is generally

13

applicable to secular and religious gatherings alike. The Court relied in part on the Ninth Circuit’s

14

application of rational basis review to the State’s ban on indoor singing. Order at 27-28 (citing

15

South Bay, 2021 WL 222814, at *18 (holding that California’s ban on indoor singing and chanting

16

was subject to deferential rational basis review because it “applies to all indoor activities, sectors,

17

and private gatherings” and there was no evidence that “this ban results in disparate treatment of

18

religious gatherings”)). In South Bay II, however, a plurality of justices joined or concurred in

19

Justice Gorsuch’s application of strict scrutiny to the singing ban. Thus, this Court finds that

20

under South Bay II, the County’s restrictions on gatherings will likely be subject to strict scrutiny

21

and, under that standard, are likely to fail for the same reasons as the State restrictions. The Court,

22

therefore, GRANTS in part Plaintiffs’ Emergency Motion to enjoin enforcement of the County

23

restrictions to the same extent as the State restrictions.

24
25
26
27

Plaintiffs Emergency Motion is GRANTED in part and DENIED in part. The State and
County are hereby enjoined from enforcing a prohibition on indoor worship services pending
Case No.: 5:20-cv-08241-EJD
ORDER GRANTING IN PART PLAINTIFFS’ EMERGENCY MOTION TO ENJOIN STATE
AND COUNTY COVID-19 RESTRICTIONS PENDING INTERLOCUTORY APPEAL

28
3

Case 5:20-cv-08241-EJD Document 75 Filed 02/08/21 Page 4 of 4

1

Plaintiffs’ interlocutory appeal to the Ninth Circuit. Neither the State nor the County are enjoined

2

from enforcing percentage-based capacity limitations on indoor worship services to the same

3

extent that such limitations are enforced against secular business and activities.

4
5
6
7

IT IS SO ORDERED.
Dated: February 8, 2021
______________________________________
EDWARD J. DAVILA
United States District Judge

8
9
10

United States District Court
Northern District of California

11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27

Case No.: 5:20-cv-08241-EJD
ORDER GRANTING IN PART PLAINTIFFS’ EMERGENCY MOTION TO ENJOIN STATE
AND COUNTY COVID-19 RESTRICTIONS PENDING INTERLOCUTORY APPEAL

28
4

EXHIBIT D

Case 5:20-cv-08241-EJD Document 64 Filed 01/29/21 Page 1 of 30

1
2
3
4

UNITED STATES DISTRICT COURT

5

NORTHERN DISTRICT OF CALIFORNIA

6

SAN JOSE DIVISION

7
8

GATEWAY CITY CHURCH, et al.,

Case No. 5:20-cv-08241-EJD

Plaintiffs,
9
v.
10
11

GAVIN NEWSOM, et al.,

United States District Court
Northern District of California

Defendants.

ORDER GRANTING IN PART AND
DENYING IN PART PLAINTIFFS’
MOTION FOR PRELIMINARY
INJUNCTION
Re: Dkt. No. 47

12
13

Plaintiffs Gateway City Church, The Home Church, The Spectrum Church, Orchard

14

Community Church, Trinity Bible Church (collectively “Plaintiffs”) brought the present motion

15

for a preliminary injunction against Defendants Gavin Newsom, in his official capacity as

16

Governor of California, Sandra Shewry, M.D., in her official capacity as Acting Director of

17

California Public Department of Health (collectively, “State”), the County of Santa Clara, and

18

Sara H. Cody, M.D., in her official capacity as Santa Clara County Health Officer (collectively

19

“County”), and their agents, employees, attorneys, law enforcement, and those acting in concert

20

(altogether, “Defendants”). Plaintiffs seek to restrain enforcement of certain State and County

21

public health orders that prohibit indoor worship services or restrict the number of people

22

permitted in places of worship as part of the State’s and County’s efforts to slow the spread of

23

COVID-19.

24

Plaintiffs’ motion requires the Court to balance two competing interests of utmost

25

importance: the public interest in the First Amendment freedom to exercise religion and the public

26

health interest in preventing and protecting against the spread of the unprecedented COVID-19

27
28

Case No.: 5:20-cv-08241-EJD
ORDER GRANTING IN PART AND DENYING IN PART PLAINTIFFS’ MOTION FOR
PRELIMINARY INJUNCTION
1

Case 5:20-cv-08241-EJD Document 64 Filed 01/29/21 Page 2 of 30

1

pandemic. The stakes are very high; the ever-increasing number of people afflicted by COVID-19

2

is devasting. The far-reaching effects of this devastation on the public, in turn, makes

3

communities of faith and spiritual well-being evermore vital.
Courts across the country, including the United States Supreme Court and the Ninth

4
5

Circuit Court of Appeal, have been weighing these competing interests since the onset of the

6

pandemic, and the case law has evolved alongside our understanding of the virus. After careful

7

consideration of recent precedent, as well as the parties’ briefing, evidentiary submissions, and

8

oral arguments, the Court GRANTS in part and DENIES in part Plaintiffs’ motion for a

9

preliminary injunction.
I.

10

A. COVID-19

11

United States District Court
Northern District of California

Background

The severe respiratory syndrome coronavirus type-2 known as COVID-19 is now the

12
13

world’s deadliest infectious disease. It has killed approximately 430,000 Americans, including

14

nearly 40,000 people in California.1 Indeed, by some measures, COVID-19 is now the leading

15

cause of death in the United States. See Dkt. No. 52-1, Declaration of Todd Grabarsky (First) In

16

Support Of State Defendants’ Opposition (“Grabarsky Decl.”), Exs. 58-59. There is no known

17

cure and only limited treatment options for the disease. Dkt. No. 52-4, Declaration of George

18

Rutherford, MD, In Support Of State Defendants’ Opposition (“Rutherford Decl.”) ¶¶ 39-41. New

19

vaccines promise an eventual end to this crisis, however, they are not yet widely available and

20

cases continue to rise. At least 706 new coronavirus deaths and 18,628 new cases were reported in

21

California on January 27, 2021, which will further encumber California’s already overburdened

22

health care facilities and intensive care units (“ICUs”).2

23
24
25
26
27
28

1

New York Times, Coronavirus in the U.S.: Latest Map and Case Count, available at
https://www.nytimes.com/interactive/2020/us/coronavirus-us-cases.html (last updated Jan. 28,
2021); New York Times, California Coronavirus Map and Case Count, available at
https://www.nytimes.com/interactive/2020/us/california-coronavirus-cases.html (last updated Jan.
28, 2021).
2
Id.
Case No.: 5:20-cv-08241-EJD
ORDER GRANTING IN PART AND DENYING IN PART PLAINTIFFS’ MOTION FOR
PRELIMINARY INJUNCTION
2

Case 5:20-cv-08241-EJD Document 64 Filed 01/29/21 Page 3 of 30

1
2

19 is transmitted primarily by respiratory droplets containing virus, which are exhaled when

3

individuals breathe, speak, sing, or chant. Rutherford Decl., ¶¶ 29-34; Dkt. No. 52-3, Declaration

4

of Dr. James Watt, MD, MPH, In Support Of State Defendants’ Opposition (“Watt Decl.”) ¶¶ 25–

5

28. It is also widely acknowledged that many people infected with the virus do not experience any

6

symptoms but may nonetheless transmit COVID-19 to others. Id. ¶¶ 30-32; Rutherford Decl. ¶¶

7

32-34. Not all exposure to the virus will result in infection, rather, epidemiologists have found

8

that “[v]iral load”—the number of “viable viral particles” to which a person is exposed—

9

determines whether the virus will “overcome the body’s defenses and cause a COVID 19

10
11

United States District Court
Northern District of California

Although much is still unknown about the virus, there is scientific consensus that COVID-

infection.” Id. ¶¶ 35-36; see also Watt Decl. ¶¶ 33, 44.
The risk that the virus will transmit between persons depends on a number of factors,

12

which affect the viral load a person could be exposed to. These include: how many people are

13

gathered in a single space (the more people, the more likely it is that one or more people are

14

infectious), the physical distance between those people (the closer they are, the more likely it is

15

that respiratory droplets from one person will reach another person), the amount of time those

16

people are in close proximity (the longer the time, the more potentially infectious droplets there

17

will be), and the amount of ventilation in the space (the more air flow, the more likely it is that

18

infectious droplets will dissipate before reaching another person), among others. Id. ¶¶ 37-46.

19

Transmission risk also increases when infected individuals engage in activities such as speaking,

20

singing, or shouting that increase their breathing and, by extension, exhalations. Id. ¶¶ 45-46;

21

Rutherford Decl. ¶¶ 75, 95-100.

22

Transmission risk may be reduced, but not eliminated, by precautions such as wearing a

23

face mask over the nose and mouth and maintaining a distance of at least six feet from individuals

24

of other households. Id. ¶ 75; Watt Decl. ¶¶ 47–53. In order to reduce the risk of transmission

25

and stem the spread of COVID-19, a wide variety of restrictions have been imposed at the local,

26

state, and federal level across the country, including the restrictions at issue in this case.

27
28

Case No.: 5:20-cv-08241-EJD
ORDER GRANTING IN PART AND DENYING IN PART PLAINTIFFS’ MOTION FOR
PRELIMINARY INJUNCTION
3

Case 5:20-cv-08241-EJD Document 64 Filed 01/29/21 Page 4 of 30

1
2

Plaintiffs filed their original complaint on November 23, 2020, followed soon after by an

3

ex parte application for a temporary restraining order. Dkt. Nos. 1, 13. On December 2, 2020,

4

this Court issued an order denying the application for a temporary restraining order without

5

prejudice and setting a status conference to discuss the substantive and procedural impact of

6

similar cases then-pending before the Supreme Court. The relevant cases were resolved before the

7

status conference and the Court then set a schedule to proceed with Plaintiffs’ preliminary

8

injunction motion. The Court also expressed some doubt about Plaintiffs’ standing to challenge

9

past orders which were no longer in effect and permitted Plaintiffs to file an amended complaint

10

United States District Court
Northern District of California

B. Procedural History

and motion focusing solely on the operative State and County orders.

11

On December 9, 2020, Plaintiffs filed an Amended Complaint. Dkt. No. 40. The

12

Amended Complaint asserts six claims under 42 U.S.C. § 1983: (1) violation of the First

13

Amendment freedom of assembly; (2) violation of the First Amendment Free Exercise Clause; (3)

14

violation of the right to equal protection under the First Amendment; (4) violation of the First

15

Amendment freedom of speech; (5) unreasonable seizure of property in violation of the Fourth

16

Amendment; and (6) violation of the Fourteenth Amendment “privileges and immunities” clause.

17

Plaintiffs also assert a seventh claim for declaratory relief. Alongside the Amended Complaint,

18

Plaintiffs filed 159 exhibits (Dkt. Nos. 41-46), a Motion for Preliminary Injunction (Dkt. No. 47,

19

“Motion”) and 25 declarations from Plaintiffs’ pastors and other church personnel in support of

20

that motion (Dkt. No. 50).

21

On December 23, 2020, the State and the County filed separate responses to the Motion.

22

Dkt. No. 52 (“State Opp.”); Dkt. No. 53 (“County Opp.”). The County attached exhibits A-S, and

23

the State attached exhibits 1-64, many of which overlap with Plaintiffs’ exhibits. Defendants also

24

filed multiple declarations, including the expert declarations of Dr. Watt and Dr. Rutherford,

25

whose qualifications and expertise in epidemiology and public health are undisputed. On

26

December 30, 2020, Plaintiffs filed a Reply (Dkt. No. 55) accompanied by 5 supplemental

27
28

Case No.: 5:20-cv-08241-EJD
ORDER GRANTING IN PART AND DENYING IN PART PLAINTIFFS’ MOTION FOR
PRELIMINARY INJUNCTION
4

Case 5:20-cv-08241-EJD Document 64 Filed 01/29/21 Page 5 of 30

1

declarations and 19 additional exhibits (exhibits 159-175).
Plaintiffs also filed objections to the Declaration of the Health Officer for the County of

United States District Court
Northern District of California

2
3

Santa Clara Sara H. Cody (“Cody Declaration”) and the Declaration of Dr. Marc Lipsitch

4

(“Lipsitch Declaration”). Dkt. No. 55-7. Specifically, Plaintiffs objected to Dr. Cody’s statements

5

about the relative transmission risks of shopping and attending worship services, and her rejection

6

of Plaintiffs’ categorical assertions that they have not contributed to the spread of COVID-19.

7

See, e.g., Cody Decl. ¶ 64 (refuting Plaintiffs’ assertion that they have not contributed to the

8

spread because “we know that persons who are asymptomatic, but infected, can spread the SARS-

9

CoV-2 infection to others—meaning that a person could become infected by SARS-CoV-2 at a

10

worship service held indoors, remain asymptomatic, and unknowingly transmit the infection to

11

persons who may have never set foot into any of the place of worship’s facilities.”). Plaintiffs also

12

object to both Dr. Cody’s and Dr. Lipsitch’s statements about Plaintiffs’ failure to comply with

13

county health orders at past indoor worship services. For the reasons stated at the preliminary

14

injunction hearing held January 15, 2021, the Court overrules Plaintiffs’ objections.3
C. Challenged Orders

15

Plaintiffs’ Motion for Preliminary Injunction specifically seeks to enjoin the State and

16
17

County’s enforcement of four interrelated public health orders.

18
19
20
21
22
23
24
25
26
27
28

3

The Federal Rules of Evidence do not strictly apply to preliminary injunction proceedings.
See Houdini Inc. v. Goody Baskets LLC, 166 F. App’x 946, 947 (9th Cir. 2006) (“the district court
did not abuse its discretion in considering hearsay and biased evidence . . . because the rules of
evidence do not strictly apply to preliminary injunction proceedings.”) (citing Republic of the
Philippines v. Marcos, 862 F.2d 1355, 1363 (9th Cir. 1988) (en banc); Flynt Distrib. Co. v.
Harvey, 734 F.2d 1389, 1394 (9th Cir. 1984). This flexibility exists because “[t]he urgency of
obtaining a preliminary injunction necessitates a prompt determination” and makes it difficult for
a party to procure supporting evidence in a form that would be admissible at trial. Id. “While
district courts may consider inadmissible evidence in the context of a preliminary injunction, this
does not mean that evidentiary issues have no relevance to this proceeding. Such issues, however,
properly go to weight rather than admissibility.” Disney Enterprises, Inc. v. VidAngel, Inc., 224 F.
Supp. 3d 957, 966 (C.D. Cal. 2016), aff’d, 869 F.3d 848 (9th Cir. 2017) (quoting Am. Hotel &
Lodging Ass’n v. City of Los Angeles, 119 F. Supp. 3d 1177, 1185 (C.D. Cal. 2015), aff’d, 834
F.3d 958 (9th Cir. 2016)).
Case No.: 5:20-cv-08241-EJD
ORDER GRANTING IN PART AND DENYING IN PART PLAINTIFFS’ MOTION FOR
PRELIMINARY INJUNCTION
5

Case 5:20-cv-08241-EJD Document 64 Filed 01/29/21 Page 6 of 30

1

United States District Court
Northern District of California

2

i.

The Blueprint

The California Department of Public Health (“CDPH”) Statewide Public Health Officer

3

Order dated August 28, 2020, known as the Blueprint for a Safer Economy (“Blueprint”) is a

4

framework of risk tiers and sector-specific restrictions, applied and periodically adjusted county-

5

by-county through the State. Plaintiffs’ Exs. 25-27. Counties are assigned tiers ranging from

6

“Tier 1-Widespread” to “Tier 4-Minimal” based on testing positivity and “case rate,” defined as

7

rate of new Covid-19 infection per capita, excluding prison cases, on a seven-day average. Tier 1

8

restrictions are the most severe. In counties designated Tier 1, social gatherings (predominately

9

but not exclusively secular) are only permitted outdoors and may only consist of up to three

10

households. Shopping centers and all retail may operate at a maximum of 25% capacity but must

11

close common areas and food courts. Museums, zoos, movie theaters, gyms, restaurants, wineries,

12

cardrooms, family entertainment centers (which include batting cages and mini golf), and

13

importantly, “places of worship” are permitted to operate outdoors only.

14

In Tier 2 social gatherings are “strongly discouraged” but permitted indoors and may

15

consist of up to three households. Retail and shopping centers may open indoors at 50% capacity.

16

Places of worship, movie theaters, and restaurants may open at 25% capacity or up to 100 people,

17

whichever is fewer. In Tier 3, retail and shopping centers may open “with modifications” but

18

without capacity restrictions, while places of worship may open indoors at 50% capacity or 200

19

people, whichever is fewer. Regardless of Tier, the Blueprint permits “critical infrastructure,”

20

including airports, to open with modifications.

21
22

ii.

State Regional Order

Issued on December 3, 2020, the State Regional Stay at Home Order (Plaintiffs’ Ex. 144)

23

(“Regional Order,” together with the Blueprint, “State Orders”) imposes further restrictions on top

24

of the Blueprint. This order goes into effect automatically the day after a region has been

25

announced to have less than 15% availability in its hospital Intensive Care Units (“ICUs”). The

26

Regional Order prohibits all gatherings with members of other households, both indoor and

27
28

Case No.: 5:20-cv-08241-EJD
ORDER GRANTING IN PART AND DENYING IN PART PLAINTIFFS’ MOTION FOR
PRELIMINARY INJUNCTION
6

Case 5:20-cv-08241-EJD Document 64 Filed 01/29/21 Page 7 of 30

1

outdoor, but makes an exception for outdoor worship and political expression. In other words,

2

worship services are subject to the Blueprint’s Tier 1 restrictions, even in a county where the

3

Regional Order is in effect.

4
5

was in effect in three of the five regions in the state, including that Bay Area region. On January

6

25, 2021, the State lifted the Regional Order completely, as projected ICU availability over 4

7

weeks in all regions rose to over 15%. Once a region exited the Regional Stay Home Order,

8

counties within that region returned to the applicable tier and rules under the Blueprint. Because

9

the Regional Order could go back into effect if ICU capacity falls again, the Court considers this

10
11

United States District Court
Northern District of California

At the time of the preliminary injunction hearing on January 15, 2021, the Regional Order

order even though it is not currently in effect.
iii.

The Capacity Directive

12

The Santa Clara County Capacity Limitations Directive (December 4, 2020) (Plaintiffs’

13

Ex. 159) (“Capacity Directive”) was issued November 15, 2020 and was most recently revised

14

January 25, 2021. It establishes capacities for various sectors and activities based on their risk

15

profiles and reflects the rules in the County’s various Mandatory Directives as well as the State’s

16

Blueprint and other orders. For example, the Capacity Directive provides indoor and outdoor

17

limitations for a number of businesses and activity types, including retail stores (20% capacity

18

indoor), gyms, bars, restaurants, and museums (all prohibited indoor), among others.

19

The Capacity Directive has been modified since Plaintiffs submitted their motion and

20

supporting exhibits. Whereas the version Plaintiffs submitted had one column capacity limitations

21

generally, the current version splits the capacity limitations into two columns: “indoor” and

22

“outdoor.” The current version indicates that “Gatherings (e.g., political events, weddings,

23

funerals, worship services, movie showings, cardroom operations)” are “prohibited” indoors and

24

outdoors are “[a]llowed up to 200 people per gathering, but subject to the limitations set forth by

25

the State, which generally prohibit all gatherings except religious services, cultural ceremonies,

26

political protests, other gatherings allowed by a State guidance document, and outdoor gatherings

27
28

Case No.: 5:20-cv-08241-EJD
ORDER GRANTING IN PART AND DENYING IN PART PLAINTIFFS’ MOTION FOR
PRELIMINARY INJUNCTION
7

Case 5:20-cv-08241-EJD Document 64 Filed 01/29/21 Page 8 of 30

1

of up to 3 households.” See Mandatory Directive on Capacity Limitations, revised and effective

2

January 25, 2021, available at https://www.sccgov.org/sites/covid19/Documents/Mandatory-

3

Directives-Capacity-Limitations.pdf (“Revised Capacity Directive”). These revisions do not

4

impact the Court’s analysis.

5

United States District Court
Northern District of California

6

iv.

The County Regional Stay At Home Order

The County Regional Stay At Home Order (December 3, 2020) (Plaintiffs’ Ex. 150-1;

7

Kieschnick Ex. L) (together with the Capacity Directive, the “County Orders”) operates to

8

implement the State’s Regional Order on a faster timeline. Based on local data that ICU capacity

9

had already fallen below 15% and considering the lag between infection and hospitalization, the

10

County Health Officer determined it was necessary to implement the stricter Stay At Home

11

restrictions on December 6, 2020. Ultimately, the State’s Regional Order was triggered for the

12

entire Bay Area on December 16, 2020 when ICU capacity fell to 12.9%.

13

Also relevant to Plaintiffs’ claims is the County Mandatory Directive for Gatherings,

14

which was first issued July 14, 2020. Kieschnick Ex. J at 1 (“Gatherings Directive”). The

15

Gatherings Directive applies to any “event . . . that brings together multiple people from separate

16

households in a single space . . . in a coordinated fashion.” The directive applies regardless of

17

whether the event has a religious or secular purpose, such as a wedding, conference, religious

18

service, festival, performance, political event, protest, or sporting event. Plaintiffs do not

19

specifically challenge this order, but it is key to understanding the other County Orders’

20

restrictions on gatherings.

21

D. Recent Precedent

22

Courts have been struggling with the questions presented in Plaintiffs’ Motion since

23

shortly after the pandemic began. As Defendants point out, up until the Supreme Court’s decision

24

in Roman Catholic Diocese of Brooklyn v. Cuomo, 141 S. Ct. 63 (2020), every federal court to

25

consider challenges to California’s limits on worship services found the challenges unlikely to

26
27
28

Case No.: 5:20-cv-08241-EJD
ORDER GRANTING IN PART AND DENYING IN PART PLAINTIFFS’ MOTION FOR
PRELIMINARY INJUNCTION
8

Case 5:20-cv-08241-EJD Document 64 Filed 01/29/21 Page 9 of 30

1

succeed.4 The legal landscape, however, has evolved since Roman Catholic Diocese and the few

2

cases that have followed it, all of which inform the Court’s analysis in this case.
i.

3

In Roman Catholic Diocese, two houses of worship sought an injunction from the Supreme

4

United States District Court
Northern District of California

Roman Catholic Diocese of Brooklyn v. Cuomo

5

Court pending their appeal in the Second Circuit, seeking relief from an New York Executive

6

Order aimed at stemming the spread of COVID-19 in the state (“New York Order”). Roman

7

Catholic Diocese of Brooklyn v. Cuomo, 141 S. Ct. 63 (2020). The New York Order imposed

8

restrictions on attendance at religious services in areas classified as “red” or “orange” zones. In

9

red zones, religious service attendance was capped at 10 people, and in orange zones, it was

10

capped at 25. Id. at 66. In both zones, however, the order provided that essential businesses could

11

“admit as many people as they wish[ed].” Id. The Court noted that “acupuncture facilities, camp

12

grounds, garages, . . . plants manufacturing chemicals and microelectronics[,] and all

13

transportation facilities” were considered “essential.” Id. Moreover, in orange zones, even “non-

14

essential businesses [could] decide for themselves how many persons to admit.” Id.

15

The Supreme Court held that the New York Order, “violate[d] ‘the minimum requirement

16

of neutrality’ to religion.” Id. (quoting Church of the Lukumi Babalu Aye, Inc. v. City of Hialeah,

17

508 U.S. 520, 533, 113 S. Ct. 2217, 124 L. Ed. 2d 472 (1993)). Under the Court’s reasoning, the

18

New York Order was not neutral because it “single[d] out houses of worship for especially harsh

19
20
4

21
22
23
24
25
26
27
28

See e.g., S. Bay United Pentecostal Church v. Newsom, 140 S. Ct. 1613, 207 L. Ed. 2d 154
(2020); Harvest Rock Church, Inc. v. Newsom, 977 F.3d 728 (9th Cir.), vacated on denial of reh’g
en banc, 981 F.3d 764 (9th Cir. 2020); South Bay United Pentecostal Church v. Newsom, 959 F.3d
938 (9th Cir. 2020); South Bay United Pentecostal Church v. Newsom, No. 20-CV-00865-BASAHG, 2020 WL 6081733 (S.D. Cal. Oct. 15, 2020), vacated and remanded, 981 F.3d 765 (9th Cir.
2020); Harvest Rock Church v. Newsom, 2020 WL 5265564 (C.D. Cal. Sept. 2, 2020), vacated,
2020 WL 7061630; Ministries v. Newsom, 465 F. Supp. 3d 1068 (S.D. Cal. 2020); Cross Culture
Christian Ctr. v. Newsom, 445 F. Supp. 3d 758 (E.D. Cal. 2020), appeal dismissed, No. 20-15977,
2020 WL 4813748 (9th Cir. May 29, 2020); Gish v. Newsom, No. EDCV20755JGBKKX, 2020
WL 1979970 (C.D. Cal. Apr. 23, 2020); Whitsitt v. Newsom, No. 220CV00691JAMCKDPS, 2020
WL 5944195 (E.D. Cal. Oct. 7, 2020); Calvary Chapel San Jose v. Cody, No. 20-CV-03794-BLF,
2020 WL 6508565 (N.D. Cal. Nov. 5, 2020).
Case No.: 5:20-cv-08241-EJD
ORDER GRANTING IN PART AND DENYING IN PART PLAINTIFFS’ MOTION FOR
PRELIMINARY INJUNCTION
9

United States District Court
Northern District of California

Case 5:20-cv-08241-EJD Document 64 Filed 01/29/21 Page 10 of 30

1

treatment.” Id. For example, “a large store in Brooklyn . . . could literally have hundreds of

2

people shopping there on any given day,” whereas “a nearby church or synagogue would be

3

prohibited from allowing more than 10 or 25 people inside for worship service.” Id. at 67. The

4

Court held that this “disparate treatment” of religion rendered the COVID-19 restrictions in the

5

order not neutral or generally applicable. Id. Thus, the Court applied strict scrutiny.

6

Applying strict scrutiny, the Court held that “[s]temming the spread of COVID-19 is

7

unquestionably a compelling interest,” but concluded the challenged order was not narrowly

8

tailored. Id. The Court reasoned that there was no evidence that the two houses of worship had

9

contributed to the spread of COVID-19 and that “there were many other less restrictive rules that

10

could be adopted to minimize the risk to those attending religious services.” Id. The Court

11

emphasized that the New York Order was “far more severe than has been shown to be required to

12

prevent the spread of the virus,” and suggested that as an alternative, New York could have tied

13

maximum attendance at a religious service “to the size of the church or synagogue.” Id. Because

14

the COVID-19 restrictions in the New York Order did not survive strict scrutiny the Court granted

15

the requested injunction pending appeal.

16
17

ii.

Calvary Chapel Dayton Valley v. Sisolak

On December 15, 2020, the Ninth Circuit issued a published decision reversing a district

18

court’s denial of a preliminary injunction to bar enforcement of a Nevada public health order.

19

Calvary Chapel Dayton Valley v. Sisolak, 982 F.3d 1228, 1233 (9th Cir. 2020) (“Dayton Valley”).

20

The Ninth Circuit held that Roman Catholic Diocese compelled strict scrutiny review of Nevada’s

21

public health directive, which imposed a fifty-person capacity limit on houses of worship but a

22

50% capacity limit on certain other businesses (“Nevada Order”). Id. at 1232. The panel wrote

23

that Roman Catholic Diocese “arguably represented a seismic shift in Free Exercise law.” Id.

24

Explaining that the Nevada Order “treats numerous secular activities and entities significantly

25

better than religious worship services” including “[c]asinos, bowling alleys, retail businesses,

26

restaurants, arcades,” leading to “the same ‘disparate treatment’ of religion” as the New York

27
28

Case No.: 5:20-cv-08241-EJD
ORDER GRANTING IN PART AND DENYING IN PART PLAINTIFFS’ MOTION FOR
PRELIMINARY INJUNCTION
10

Case 5:20-cv-08241-EJD Document 64 Filed 01/29/21 Page 11 of 30

1

Order. Id. at 1233. Thus, the Ninth Circuit applied strict scrutiny. The court found that Nevada

2

held a compelling interest in slowing the spread of COVID-19 but concluded that the directive

3

was not narrowly tailored to the compelling interest “because, for example, ‘maximum attendance

4

at a religious service could be tied to the size of the [house of worship].’” Id. at 1234. (citing

5

Roman Catholic Diocese, 141 S. Ct. at 66-67).

6

United States District Court
Northern District of California

7

v.

South Bay United Pentecostal Church v. Newsom

The South Bay United Pentecostal Church first requested a preliminary injunction against

8

the State Orders in May 2020. After that request was denied, the church sought emergency relief

9

from the Ninth Circuit and then the Supreme Court. The Supreme Court denied the church’s

10

application for relief, South Bay United Pentecostal Church v. Newsom, 140 S. Ct. 1613, 207 L.

11

Ed. 2d 154 (2020), and remanded to the district court, where injunctive relief was once again

12

denied. South Bay United Pentecostal Church v. Newsom, No. 20-CV-00865-BAS-AHG, 2020

13

WL 7488974 (S.D. Cal. Dec. 21, 2020).

14

On January 22, 2021, the Ninth Circuit published its opinion affirming the district court’s

15

denial of the preliminary injunction. South Bay United Pentecostal Church v. Newsom, No. 20-

16

56358, 2021 WL 222814 (9th Cir. Jan. 22, 2021) (South Bay). The Ninth Circuit considered the

17

State Orders at issue in this case and much of the same evidence presented by the State. The court

18

concluded that under the standards set forth in Roman Catholic Diocese and Dayton Valley, the

19

State Orders were subject to a strict scrutiny review. After a careful examination of the State’s

20

justification for each restriction on worship services, the Ninth Circuit determined that “given the

21

contagiousness of this deadly virus and the dire circumstances facing Southern California’s

22

healthcare system at this moment in its history,” the prohibition on indoor worship services was

23

Constitutional because “there exist no less restrictive means to alleviate the situation.” South Bay,

24

2021 WL 222814, at *16. In contrast, the court found that the 100- and 200-person limits on

25

capacity at worship services in Tiers 2 and 3 of the Blueprint were not narrowly tailored, and the

26

plaintiff was therefore likely to succeed on its Free Exercise challenge to those specific

27
28

Case No.: 5:20-cv-08241-EJD
ORDER GRANTING IN PART AND DENYING IN PART PLAINTIFFS’ MOTION FOR
PRELIMINARY INJUNCTION
11

Case 5:20-cv-08241-EJD Document 64 Filed 01/29/21 Page 12 of 30

1

restrictions. Id. at *18. Finally, the court found that the State’s separate ban on indoor singing

2

and chanting was subject only to a rational basis review, which it was likely to survive. Id. Thus,

3

the court affirmed the district courts denial of a preliminary injunction but remanded with

4

instructions for the district court to enjoin the numerical limits on capacity.
vi.

5

Following Roman Catholic Diocese, the Supreme Court declined to consider a similar

6

United States District Court
Northern District of California

Harvest Rock Church v. Newsom

7

application for emergency relief from a California church, Harvest Rock. Instead, the Supreme

8

Court remanded the case to the district court for further consideration in light of Roman Catholic

9

Diocese. Harvest Rock Church v. Newsom, Gov. of CA, No. 20A94, 2020 WL 7061630, at *1

10

(U.S. Dec. 3, 2020). The district court denied the requested preliminary injunction, finding that

11

the Blueprint was neutral and generally applicable. Harvest Rock Church, Inc. v. Newsom, No.

12

EDCV206414JGBKKX, 2020 WL 7639584, at *6 (C.D. Cal. Dec. 21, 2020). The court further

13

found that the Blueprint would nevertheless survive strict scrutiny because it was “painstakingly

14

tailored to address the risks of Covid-19 transmission specifically.” Id.
Harvest Rock Church sought an emergency injunction pending appeal at the Ninth Circuit.

15
16

On January 25, 2021, in accordance with its decision in South Bay, the Ninth Circuit granted the

17

preliminary injunction as to the fixed 100- and 200-person capacity limitations on indoor worship

18

services in Tiers 2 and 3 of the Blueprint, but denied the injunction in all other respects. Harvest

19

Rock Church, Inc. v. Newsom, No. 20-56357, 2021 WL 287832, at *2 (9th Cir. Jan. 25, 2021). In

20

a concurring opinion, Judge O’Scannlain acknowledged that the outcome was warranted under

21

South Bay but expressed strong disagreement with the court’s decision in South Bay. Id. at *2-4

22

(O’Scannlain, J., concurring).

23

II.

Legal Standard

24

The Supreme Court has emphasized that preliminary injunctions are an “extraordinary

25

remedy never awarded as of right.” Garcia v. Google, Inc., 786 F.3d 733, 740 (9th Cir. 2015)

26

(quoting Winter v. Nat. Res. Def. Council, Inc., 555 U.S. 7, 24, 129 S. Ct. 365, 172 L. Ed. 2d 249

27
28

Case No.: 5:20-cv-08241-EJD
ORDER GRANTING IN PART AND DENYING IN PART PLAINTIFFS’ MOTION FOR
PRELIMINARY INJUNCTION
12

Case 5:20-cv-08241-EJD Document 64 Filed 01/29/21 Page 13 of 30

1

(2008). To secure a preliminary injunction Plaintiffs must make a clear showing that (1) they are

2

likely to succeed on the merits, (2) they are likely to suffer irreparable harm in the absence of

3

preliminary relief, (3) the balance of equities tips in its favor, and (4) an injunction is in the public

4

interest. Winter, 555 U.S. at 20–22. In the Ninth Circuit, the first element may also be met where

5

there are “‘serious questions going to the merits’ and a hardship balance that tips sharply towards

6

the plaintiff [which] can support issuance of a preliminary injunction, so long as the plaintiff also

7

shows that there is a likelihood of irreparable injury and that the injunction is in the public

8

interest.” All. for the Wild Rockies v. Cottrell, 632 F.3d 1127, 1135 (9th Cir. 2011).

9

III.

10

United States District Court
Northern District of California

11
12
13

Discussion
Plaintiffs’ Amended Complaint raises seven claims, however, their Preliminary Injunction

Motion only argues the merits of their First Amendment Free Exercise claim (Claim Two).
a. Likelihood of Success on the Merits as to the State Orders
“The first factor under Winter is the most important—likely success on the merits.”

14

Garcia, 786 F.3d at 740 (citing Aamer v. Obama, 742 F.3d 1023, 1038 (D.C. Cir. 2014) (“We

15

begin with the first and most important factor: whether petitioners have established a likelihood of

16

success on the merits.”)).

17

“The Free Exercise Clause of the First Amendment, which has been made applicable to the

18

States by incorporation into the Fourteenth Amendment . . . provides that ‘Congress shall make no

19

law respecting an establishment of religion, or prohibiting the free exercise thereof[.]’”

20

Employment Div., Dep’t of Human Res. of Oregon v. Smith, 494 U.S. 872, 876–77, 110 S. Ct.

21

1595, 108 L. Ed. 2d 876 (1990) (internal citations and emphasis omitted). In determining whether

22

a law prohibits the free exercise of religion, courts first ask whether the law “is neutral and of

23

general applicability.” Church of the Lukumi Babalu Aye, Inc., 508 U.S. at 531 (citing

24

Employment Div., Dept. of Human Resources of Oregon, 494 U.S. at 879). If it is, then the law

25

need only survive rational basis review—even if it “has the incidental effect of burdening a

26

particular religious practice.” Id. If a law is not neutral and generally applicable, the law must

27
28

Case No.: 5:20-cv-08241-EJD
ORDER GRANTING IN PART AND DENYING IN PART PLAINTIFFS’ MOTION FOR
PRELIMINARY INJUNCTION
13

Case 5:20-cv-08241-EJD Document 64 Filed 01/29/21 Page 14 of 30

1

survive strict scrutiny review. Church of the Lukumi Babalu Aye, Inc., 508 U.S. 520.
i. Level of Scrutiny

2
3
4

generally applicable, or whether “the object of a law is to infringe upon or restrict practices

5

because of their religious motivation.” Church of the Lukumi Babalu Aye, Inc., 508 U.S. at 533.

6

Traditionally, under Lukumi, courts determine whether a law is “neutral and of general

7

applicability,” by considering whether the law treats religious conduct less favorably than

8

“analogous non-religious conduct.” Church of the Lukumi Babalu Aye, Inc., 508 U.S. at 531–32,

9

546; Stormans, Inc. v. Wiesman, 794 F.3d 1064, 1079 (9th Cir. 2015) (examining “comparable

10
11

United States District Court
Northern District of California

The first step in the analysis is to determine whether the State Orders are neutral and

secular conduct”).
In Roman Catholic Diocese, the Supreme Court found that New York’s orders “cannot be

12

viewed as neutral because they single out houses of worship for especially harsh treatment.”

13

Roman Catholic Diocese of Brooklyn, 141 S. Ct. at 66. The Supreme Court explained:

14
15
16
17
18
19
20
21
22
23
24

In a red zone, while a synagogue or church may not admit more than 10
persons, businesses categorized as “essential” may admit as many people as
they wish. And the list of “essential” businesses includes things such as
acupuncture facilities, camp grounds, garages, as well as many whose
services are not limited to those that can be regarded as essential, such as all
plants manufacturing chemicals and microelectronics and all transportation
facilities. . . . The disparate treatment is even more striking in an orange zone.
While attendance at houses of worship is limited to 25 persons, even nonessential businesses may decide for themselves how many persons to admit.
These categorizations lead to troubling results. At the hearing in the District
Court, a health department official testified about a large store in Brooklyn
that could “literally have hundreds of people shopping there on any given
day.” . . . Yet a nearby church or synagogue would be prohibited from
allowing more than 10 or 25 people inside for a worship service. And the
Governor has stated that factories and schools have contributed to the spread
of COVID–19, . . . but they are treated less harshly than the Diocese’s
churches and Agudath Israel’s synagogues, which have admirable safety
records.

25

Id. at 66–67. Thus, in determining whether the New York Orders were neutral and generally

26

applicable, the Supreme Court did not specifically consider whether houses of worship were

27
28

Case No.: 5:20-cv-08241-EJD
ORDER GRANTING IN PART AND DENYING IN PART PLAINTIFFS’ MOTION FOR
PRELIMINARY INJUNCTION
14

Case 5:20-cv-08241-EJD Document 64 Filed 01/29/21 Page 15 of 30

1

treated less favorably than analogous secular facilities. Rather, the Supreme Court emphasized the

2

disparate treatment of non-analogous places such as campgrounds, garages, manufacturing plants,

3

and all transportation facilities. The per curium opinion did not elaborate on these points of

4

comparison, however, Justice Kavanaugh’s concurring opinion succinctly captures the approach

5

the Court appeared to take. He writes:

6
7
8

United States District Court
Northern District of California

9

“[U]nder this Court’s precedents, it does not suffice for a State to point out
that, as compared to houses of worship, some secular businesses are subject
to similarly severe or even more severe restrictions. . . . Rather, once a State
creates a favored class of businesses, as New York has done in this case, the
State must justify why houses of worship are excluded from that favored
class.”

10

Id. at 73 (Kavanaugh, J., concurring); see also Calvary Chapel Dayton Valley v. Sisolak, 140 S.

11

Ct. 2603, 2613, 207 L. Ed. 2d 1129 (2020) (Kavanaugh, J., dissenting) (“The point is not whether

12

one or a few secular analogs are regulated. The question is whether a single secular analog is not

13

regulated.”).

14

In Dayton Valley, the Ninth Circuit noted that the Supreme Court’s approach in Roman

15

Catholic Diocese “arguably represented a seismic shift in Free Exercise law.” Dayton Valley, 982

16

F.3d at 1232. In evaluating Nevada’s public health restrictions on places of worship, the panel

17

held that Roman Catholic Diocese compelled the application of strict scrutiny because “[j]ust like

18

the New York restrictions, the Directive treats numerous secular activities and entities

19

significantly better than religious worship services.” Id. (emphasis added). Notably, the panel

20

dropped the “comparable” or “analogous” requirement. Cf. Church of the Lukumi Babalu Aye,

21

Inc., 508 U.S. at 531–32, 546 (considering whether the law treats religious conduct less favorably

22

than “analogous non-religious conduct”) (emphasis added); Stormans, Inc., 794 F.3d at 1079

23

(examining “comparable secular conduct”) (emphasis added). The Ninth Circuit instead pointed

24

to “[c]asinos, bowling alleys, retail businesses, restaurants, arcades, and other similar secular

25

entities,” which were allowed to operate at a higher capacity than houses of worship. As a result,

26

the panel found the Nevada restrictions created the same disparate treatment of religion as the

27
28

Case No.: 5:20-cv-08241-EJD
ORDER GRANTING IN PART AND DENYING IN PART PLAINTIFFS’ MOTION FOR
PRELIMINARY INJUNCTION
15

Case 5:20-cv-08241-EJD Document 64 Filed 01/29/21 Page 16 of 30

United States District Court
Northern District of California

1

New York Orders, triggering strict scrutiny review.

2

Similarly, in South Bay, the Ninth Circuit explained that Roman Catholic Diocese compels

3

courts to apply strict scrutiny “whenever a state imposes different capacity restrictions on religious

4

services relative to non-religious activities and sectors. South Bay, 2021 WL 222814, at *8 (citing

5

Roman Catholic Diocese, 141 S. Ct. at 66–67). Both the Regional Order and the Blueprint were at

6

issue in South Bay. The court explained that “the restrictions do permit grocery stores and retail

7

establishments to operate at 35% and 20% of capacity, respectively, under the Regional Stay at

8

Home Order and at 50% and 25% of capacity, respectively, under Tier 1 of the Blueprint. Tier 1

9

also permits certain personal care services, such as hair and nail salons, to open indoors subject to

10

additional modifications and strict industry guidance.” The court concluded that given these lesser

11

restrictions on secular activities, the total prohibition of indoor worship constitutes “‘disparate

12

treatment’ of religion [and] triggers strict scrutiny review.” Id. at *9 (citing Dayton Valley, 982

13

F.3d at 1233).5 Pursuant to South Bay, Dayton Valley, and the Ninth Circuit’s application of

14

Roman Catholic Diocese, this Court holds that the State Orders are subject to strict scrutiny.
To satisfy strict scrutiny, the State must demonstrate that the State Orders are “‘narrowly

15
16

tailored’ to serve a ‘compelling’ state interest.” Roman Catholic Diocese, 141 S. Ct. at 67

17

(quoting Church of the Lukumi Babalu Aye, Inc., 508 U.S. at 546). Although strict scrutiny

18

imposes a high bar, courts have “upheld laws—even under strict scrutiny.” See Williams-Yulee v.

19

Fla. Bar, 575 U.S. 433, 449, 135 S. Ct. 1656, 191 L. Ed. 2d 570 (2015) (collecting cases).

20
21
22
23
24
25
26
27
28

In finding that strict scrutiny applies, the panel noted that they found “no record evidence of
animus toward religious groups” by the state. South Bay, 2021 WL 222814, at *9, n.21; cf. Roman
Catholic Diocese, 141 S. Ct. at 66 (noting “a variety of remarks made by the Governor” that the
restrictions were intended to “specifically target[] the Orthodox Jewish community”). This Court
likewise finds no evidence of animus by the State or County in the extensive record before it.
Indeed, Plaintiffs do not argue that the State or County demonstrated animosity towards religion,
rather, they argue that strict scrutiny applies even in the absence of animosity. Mot. at 6-7 (citing
Roberts v. Neace, 958 F.3d 409, 415 (6th Cir. 2020) (“The constitutional benchmark is
‘government neutrality,’ not ‘governmental avoidance of bigotry.”)); see also Roman Catholic
Diocese, 141 S. Ct. at 66 (“even if we put those [hostile] statements aside, the regulations cannot
be viewed as neutral because they single out houses of worship for especially harsh treatment”).
Case No.: 5:20-cv-08241-EJD
ORDER GRANTING IN PART AND DENYING IN PART PLAINTIFFS’ MOTION FOR
PRELIMINARY INJUNCTION
16
5

Case 5:20-cv-08241-EJD Document 64 Filed 01/29/21 Page 17 of 30

United States District Court
Northern District of California

1

ii. Compelling Government Interest

2

The Supreme Court expressly held that “[s]temming the spread of COVID-19 is

3

unquestionably a compelling interest.” Roman Catholic Diocese, 141 S. Ct. at 68. The Ninth

4

Circuit held the same. South Bay, 2021 WL 222814, at *10 (concluding, over plaintiff’s

5

objections, that “California has a compelling interest in reducing community spread of COVID-

6

19”); Dayton Valley, 982 F.3d at 1234 (“though slowing the spread of COVID-19 is a compelling

7

interest, the [Nevada Order] is not narrowly tailored to serve that interest.”). Moreover, although

8

Plaintiffs make an argument that the situation is no longer one of exigency, they also concede that

9

“[s]lowing the spread of COVID-19 certainly qualifies as a compelling interest.” Motion at 13.

10

Thus, the likelihood of success of Plaintiffs’ Free Exercise claim turns on whether the State can

11

demonstrate that its restrictions on places of worship are narrowly tailored to achieve this

12

compelling interest.

13
14

iii. Narrow Tailoring
In order to show that the restrictions on indoor worship are narrowly tailored, the State

15

must show that they are “the least restrictive means of achieving some compelling state interest.”

16

Thomas v. Review Bd. of Indiana Employment Sec. Div., 450 U.S. 707, 718, 101 S. Ct. 1425, 67 L.

17

Ed. 2d 624 (1981).

18

1. Prohibition of indoor worship

19

The State argues that the restrictions on places of worship in the State Orders, including

20

the prohibition of indoor worship under Tier 1 and the Regional Order, are narrowly tailored to

21

stem the spread of COVID-19 because they are based on objective data and a science-driven risk

22

assessment process. Specifically, the risk associated with each activity listed in the Blueprint was

23

evaluated according to seven risk factors focused on the method by which the virus is transmitted.

24

South Bay, 2021 WL 222814, at *10. These factors are: (1) ability to accommodate wearing

25

masks at all times; (2) ability to allow physical distancing; (3) ability to limit the duration of

26

exposure; (4) ability to limit the amount of mixing of people from differing households and

27
28

Case No.: 5:20-cv-08241-EJD
ORDER GRANTING IN PART AND DENYING IN PART PLAINTIFFS’ MOTION FOR
PRELIMINARY INJUNCTION
17

United States District Court
Northern District of California

Case 5:20-cv-08241-EJD Document 64 Filed 01/29/21 Page 18 of 30

1

communities; (5) ability to limit the amount of physical interactions of visitors/patrons; (6) ability

2

to optimize ventilation; and (7) ability to limit activities that are known to cause increased spread.

3

According to the State, these factors are based on a scientific understanding of the way the

4

virus is transmitted, including the fact that “viral load”—the amount of virus a person is exposed

5

to during any given activity—affects how likely a person is to become infected and to become ill.

6

This means that the length and concentration of a person’s exposure to the virus matters. In light

7

of that understanding, the State carefully crafted the risk factors laid out above and used those

8

factors to assess the risk of transmission associated with various activities. In doing so, the State

9

determined that indoor worship services pose an enormous risk of transmission because they bring

10

a large group of people together to sit near one another in the same space for an extended period of

11

time, indoors, where air flow is limited, with socializing, singing, chanting and other conduct that

12

increases transmission risk. Watt Decl. ¶¶ 38, 53, 70 99; Rutherford Decl. ¶¶ 90-94, 106. These

13

characteristics of indoor worship services increase the viral load that a person might be exposed to

14

during the activity, which in turn increases the risk of infection and illness. The risky nature of

15

worship services can be alleviated, in part, by increasing ventilation, which is why the State

16

Orders permit worship services outdoors.

17

State health experts determined that indoor worship services were riskier than shopping at

18

retail or grocery stores, both of which are treated more favorably under the State Orders, because

19

people tend to move quickly through retail and grocery stores and are less likely to interact with

20

people outside of their households. Rutherford Decl. ¶¶ 112-18. These differences meaningfully

21

decrease the viral load a shopper might be exposed to, which makes the activity significantly less

22

risky. Id. at 112, 116. Other activities, such as personal care services, are less risky because

23

although they “may bring together people in close contact with one another, they involve small

24

numbers of individuals interacting, in contrast to the numbers of individuals commonly present at

25

indoor worship services. South Bay, 2021 WL 222814, at *12 (internal quotations omitted).

26

Moreover, personal care services are more easily subject to additional mandatory hygienic

27
28

Case No.: 5:20-cv-08241-EJD
ORDER GRANTING IN PART AND DENYING IN PART PLAINTIFFS’ MOTION FOR
PRELIMINARY INJUNCTION
18

Case 5:20-cv-08241-EJD Document 64 Filed 01/29/21 Page 19 of 30

1

requirements—e.g., a mandatory secondary barrier in addition to a face mask—that further

2

decrease risk. The number of people and nature of worship services make these more burdensome

3

requirements impractical.

4
5

application of its seven risk factors to the sectors and activities that are subject to lesser restrictions

6

than places of worship. Id. at *11-13. The district court held, and the Ninth Circuit affirmed, that

7

the State’s risk assessment of each activity justified the restrictions applied to each activity.

8

Specifically, the Ninth Circuit found that the State “tailored its ‘restrictions to the specific

9

mechanism of Covid-19 transmission: viral droplets which travel through the air from person to

10
11

United States District Court
Northern District of California

In South Bay, both the district court and the Ninth Circuit carefully examined the State’s

person.’” Id. at *15 (quoting Harvest Rock Church, Inc., 2020 WL 7639584, at *7).
The South Bay court distinguished the State Orders from the restrictions at issue in Roman

12

Catholic Diocese and Dayton Valley, finding that the State Orders were not “especially harsh”

13

toward religion. Id. at *15. On the contrary, the State’s “objective risk assessment treats all

14

communal gatherings the same across activities and sectors.” Id. Indeed, the Supreme Court itself

15

described the New York Order as “far more restrictive” than a previous iteration of the State

16

restrictions, which have been incorporated into Tier 2 of the Blueprint. Roman Catholic Diocese,

17

141 S. Ct. at 67 n.2 (citing South Bay United Pentecostal Church, 140 S. Ct. 1613); see also id. at

18

74 (Kavanaugh, J., concurring) (“New York’s restrictions on houses of worship are much more

19

severe than the California and Nevada restrictions at issue in South Bay and [Dayton Valley] . . .

20

.”); id. at 75 (Roberts, C.J., dissenting) (observing that the New York restrictions are

21

“distinguishable from those we considered in [South Bay]”).

22

Plaintiffs primarily argue that the State’s proffered justification for its prohibition of indoor

23

worship is undermined by the fact that the State Orders completely fail to restrict similarly risky

24

activity. Plaintiffs focus on airport gates as an example of an unregulated, similarly risk activity.

25

They argue that airport gates present substantially similar risk to indoor worship services because

26

people at airport gates gather in large groups, sit near each other, in rows, for extended periods of

27
28

Case No.: 5:20-cv-08241-EJD
ORDER GRANTING IN PART AND DENYING IN PART PLAINTIFFS’ MOTION FOR
PRELIMINARY INJUNCTION
19

Case 5:20-cv-08241-EJD Document 64 Filed 01/29/21 Page 20 of 30

1

time while waiting for their flight. Yet, airports are not subject to any restrictions under the State

2

Orders, let alone the strict capacity limitations or prohibition on indoor operations that places of

3

worship are subject to. Plaintiffs, therefore, specifically request that they be allowed to resume

4

indoor operations to the same extent as airports.

United States District Court
Northern District of California

5

In response, the State first argues that the comparison fails because federal law preempts

6

state regulation of airports and air travel, and therefore, the State does not have the power to

7

regulate airports in the same way it regulates other activities. Opposition at 15 (citing Montalvo v.

8

Spirit Airlines, 508 F.3d 464, 468 (9th Cir. 2007) (“the FAA preempts the entire field of aviation

9

safety through implied field preemption”)). Whether and the extent to which hypothetical

10

restrictions at airports, such as capacity limitations or social distancing, would be preempted by

11

federal law is outside the scope of this motion. Suffice it to say that the federal government does

12

not categorically prohibit local governments from imposing public health ordinances on airports;

13

rather, it has indicated that any such measures must be approved by the FAA. See Grabarsky

14

Decl. Ex. 51 (stating that “all proposed closing of airport access,” “closing of gates or sections of

15

terminals,” and “screening or quarantining of passengers” among other restrictions must be

16

approved by and coordinated with the FAA). It does not follow that the State and County cannot

17

impose any public health measures on airports at all. Thus, the possibility that measures taken

18

without FAA approval might be preempted does not, in itself, explain the difference in treatment

19

of airports and places of worship.

20

The State next argues that airport gates are not comparable to indoor worship services

21

because they pose a lesser risk of transmission. Airports like the Norman Y. Mineta San Jose

22

International Airport are immense facilities with efficient airflow and ventilation systems and are

23

subject to a host of federal rules and regulations not applicable or feasible for places of worship,

24

all of which greatly lower transmission risk. Rutherford Decl. ¶¶ 105, 123-29; Grabarsky Decl.

25

Exs. 56-57. Unlike at worship services, people in airports typically do not interact with members

26

of other households, carry on social conversations, sit in one place for an hour or more, or engage

27
28

Case No.: 5:20-cv-08241-EJD
ORDER GRANTING IN PART AND DENYING IN PART PLAINTIFFS’ MOTION FOR
PRELIMINARY INJUNCTION
20

United States District Court
Northern District of California

Case 5:20-cv-08241-EJD Document 64 Filed 01/29/21 Page 21 of 30

1

in singing, chanting, or other activities that increase viral exposure. See South Bay, 2021 WL

2

222814, at *13 (“unlike worship services, interactions in a transit setting are likely to be asocial,

3

brief and distant . . . Furthermore, chanting or yelling is uncommon—perhaps even alarming—in

4

these environments”).

5

Plaintiffs’ assertion that “[t]he reality of gatherings at airport gates is that they are quite

6

social with tremendous interaction,” is entirely anecdotal and speculative. Reply at 13. On the

7

other hand, the State’s characterization of behavior at worship services—i.e., that it is inherently

8

social and interactive—is supported by countless declarations from Plaintiffs’ pastors and

9

personnel. See, e.g., Decl. Jonathan Reynolds Support ¶ 11 (“Our services at GCC are spiritual

10

events, but also very social. Our people love to gather, greet each other, and enjoy the company of

11

each other as they worship, pray, and hear a message. Our services consist of times of corporate

12

singing and prayers”).6 As these declarations make clear, the fellowship of worshipping together

13

is central to the practice of Plaintiffs’ faith and the absence of such fellowship has undeniably

14

caused harm to individuals and communities of Plaintiffs’ faith. But it is, in part, this social aspect

15

of worship that distinguishes worship services from airport gates in a way that makes worship

16

services substantially riskier activities.
Plaintiffs further contend that the total prohibition of indoor worship under the Regional

17
18

Order and Tier 1 of the Blueprint is overinclusive because it prohibits more activity than necessary

19
20
21
22
23
24
25
26
27
28

See also Declaration of Rev. George Kistler ¶ 7 (“God has created humans as social beings, . . .
we must be able to meet together in person with real human interaction. We must be able to freely
exercise our religious expression and have interaction with our God together through our worship,
which must include singing.”); Declaration of Rev. Cobb ¶ 27 (“it is imperative that we gather as a
church body to fellowship, worship and connect relationally. . . . It is only through gathering as a
church body can we experience the benefits of receiving teaching on moral Biblical truths,
encouragement by physical connection, [and] singing as a group which release the soul to a state
of peace and joy.”); Declaration of Rev. Hector Moreno ¶ 66 (“Worship services are participatory
responsive gatherings where people actively ‘come before his presence with singing’ and ‘enter
into his gates with thanksgiving’, worshipping the Lord together, in songs of praise, songs of
thanksgiving, songs of joy, new songs, and songs in the Spirit . . . God’s people worship, speak,
inquire, teach and hear the word of God together, and partake of the sacraments together of
communion . . . people assemble for fellowship and breaking bread and for prayer”); Declaration
of Dr. Samuel ¶ 36 (“Worship[] services are vital to the social and spiritual health.”); Declaration
of Rev. Todd Burgett ¶ 55 (same).
Case No.: 5:20-cv-08241-EJD
ORDER GRANTING IN PART AND DENYING IN PART PLAINTIFFS’ MOTION FOR
PRELIMINARY INJUNCTION
21
6

United States District Court
Northern District of California

Case 5:20-cv-08241-EJD Document 64 Filed 01/29/21 Page 22 of 30

1

to prevent the spread of COVID-19. Plaintiffs argue that “[s]ocial distancing, masks, and hand

2

washing will protect congregants from exposure to the virus.” Mot. at 8. The State’s health

3

officials concluded that these measures are “good . . . but insufficient” to reduce community

4

transmission. Watt Decl. ¶¶ 100-01. In support of their assertion that lesser protective measures

5

would suffice, Plaintiffs rely on their own observations that none of the Plaintiff churches

6

experienced an outbreak nor “contributed to the spread of COVID-19” when they were operating

7

indoor worship and taking these basic safety precautions. Reply at 3. Because of the reality that

8

the virus may transmit through asymptomatic individuals, the Court does not find Plaintiffs’

9

observations reliable or compelling. See South Bay, 2021 WL 222814, at *14 (finding that

10

plaintiff’s “self-serving assertion that it has experienced no incidence of the virus among its

11

worshipers is entirely anecdotal and undermined by evidence of outbreaks in similarly situated

12

places of worship.”).

13

Plaintiffs also rely on the Declaration of Dr. Jayanta Bhattacharya, a Professor of Medicine

14

at Stanford University, who recommends that public health officials adopt an approach of

15

“focused protection of those at higher risk of serious injury instead of shutting down society.”

16

Dkt. No. 50-24, Declaration of Dr. Jayanta Bhattacharya In Support Of Plaintiffs’ Ex Parte

17

Application For Temporary Restraining Order and Order to Show Cause Why a Preliminary

18

Injunction Should Not Issue Against Defendants (“Bhattacharya Decl.”) ¶ 4. According to this

19

theory, the State does more harm by imposing harsh lockdown measures than would be done by

20

allowing COVID-19 to spread freely because only a minority of those who contract COVID-19

21

become seriously ill or die. Id.; see generally, The Great Barrington Declaration, Plaintiffs’ Ex.

22

98. Dr. Bhattacharya opines that given the very high infection survival rate of most age groups,

23

the public health benefits of worship services outweigh the public health risks of transmission.

24

Bhattacharya Decl. ¶¶ 45-49. As an initial matter, the Court is not persuaded by Dr.

25

Bhattacharya’s focus on infection survival rates, considering that many individuals who survive

26

COVID-19 suffer serious long-term side effects and many others experience significant suffering

27
28

Case No.: 5:20-cv-08241-EJD
ORDER GRANTING IN PART AND DENYING IN PART PLAINTIFFS’ MOTION FOR
PRELIMINARY INJUNCTION
22

United States District Court
Northern District of California

Case 5:20-cv-08241-EJD Document 64 Filed 01/29/21 Page 23 of 30

1

before recovering. Watt Decl. ¶¶ 21-23. Preventing suffering and long-term side-effects are

2

legitimate public health benefits not taken into account in Dr. Bhattacharya’s approach.

3

More fundamentally, Dr. Bhattacharya does not contradict any of the State’s evidence or

4

conclusions regarding viral transmission, rather, he questions the wisdom of restricting activities

5

based on transmission risk without considering the countervailing benefits of those activities. Id. ¶

6

39. Regardless of the merits of Dr. Bhattacharya’s critique, this cost-benefit analysis is a matter of

7

public policy. Courts have recently and consistently reiterated that matters of public health policy

8

are best left to politically accountable public health officials, not the courts. See Roman Catholic

9

Diocese, 141 S. Ct. at 74 (Kavanaugh, J., concurring) (“Federal courts [] must afford substantial

10

deference to state and local authorities about how best to balance competing policy considerations

11

during] the pandemic.”); id., at *3 (“Members of this Court are not public health experts, and we

12

should respect the judgment of those with special expertise and responsibility in this area.”);

13

Dayton Valley, 982 F.3d at 1232 n.3 (same); South Bay, 2021 WL 222814, at *14 (“[W]hile some

14

may disagree with the local public health officials’ assessments of what constitutes comparable

15

activities based on the seven risk factors, . . . such risk assessment—which necessarily reflects the

16

local climate, infrastructure, and public health outcomes of prior policies—is a question of policy-

17

making better deferred to the local public health officials.”). This deference is particularly

18

important where there is disagreement in the scientific community. As Chief Justice Roberts

19

explained in his concurring opinion to the denial of emergency relief in South Bay:

20
21
22
23

When [politically accountable] officials “undertake[ ] to act in areas fraught
with medical and scientific uncertainties,” their latitude “must be especially
broad.” Marshall v. United States, 414 U.S. 417, 427 (1974). Where those
broad limits are not exceeded, they should not be subject to second-guessing
by an “unelected federal judiciary,” which lacks the background,
competence, and expertise to assess public health and is not accountable to
the people.

24
25

South Bay United Pentecostal Church, 140 S. Ct. at 1613–14 (Roberts, C.J., concurring) (citations

26

omitted and altered).

27
28

Case No.: 5:20-cv-08241-EJD
ORDER GRANTING IN PART AND DENYING IN PART PLAINTIFFS’ MOTION FOR
PRELIMINARY INJUNCTION
23

Case 5:20-cv-08241-EJD Document 64 Filed 01/29/21 Page 24 of 30

1

In the context of a dynamic and unprecedent pandemic, this Court is satisfied that

2

“California did exactly what the narrow tailoring requirement mandates—that is, California has

3

carefully designed the different exemptions to match its goal of reducing community spread, based

4

on a neutral, seven-factor risk analysis.” South Bay United Pentecostal Church, 2020 WL

5

7488974, at *11; see also Harvest Rock Church, Inc., 2020 WL 7639584, at *9 (“[i]f ‘narrowly

6

tailored’ does not mean based on the specific mechanism of Covid-19 infection with sliding levels

7

of restriction based on scientific likelihood of viral spread in any given scenario, it means

8

nothing.”).

9

United States District Court
Northern District of California

10

2. Numerical Capacity Restrictions
Although the prohibition of indoor worship currently in effect under Tier 1 of the Blueprint

11

(and previously in effect under the Regional Order) survives strict scrutiny, the Court must also

12

consider the restrictions imposed under Tiers 2, 3, and 4 of the Blueprint that will go into effect as

13

the infection rate in the county decreases. Specifically, the State must also justify its imposition of

14

a 25% or 100-person (whichever is fewer) capacity limitation on places of worship in Tier 2 and a

15

50% or 200-person capacity limitation in Tier 3, when certain secular activities are not similarly

16

subject to a fixed capacity limitation. The Ninth Circuit considered this question in South Bay:

17
18
19
20
21
22
23
24

Whereas the State has submitted substantial evidence as to why indoor
worship is unsafe at any level in counties where COVID-19 is “widespread”
and ICU capacity is non-existent, we cannot find record evidence to support
its assertion that the 100-person cap in Tier 2 and 200-person cap in Tier 3
are necessary to achieve its goal in further slowing community spread. As in
Roman Catholic Diocese, “there are many other less restrictive rules that
could be adopted to minimize the risk to those attending religious services.”
. . . And while 100 or 200 people could overwhelm a small chapel, a large
church the size of South Bay could easily implement social distancing with
much higher numbers. Accordingly, we conclude that South Bay is likely to
succeed on the merits of its Free Exercise claim with respect to the numerical
caps in Tiers 2 and 3.”
South Bay, 2021 WL 222814, at *18 (citations omitted).

25

As in South Bay, the State in this case has not shown any scientific basis for why the

26

transmission risk would increase with over 100 people present regardless of the size of the church.

27
28

Case No.: 5:20-cv-08241-EJD
ORDER GRANTING IN PART AND DENYING IN PART PLAINTIFFS’ MOTION FOR
PRELIMINARY INJUNCTION
24

Case 5:20-cv-08241-EJD Document 64 Filed 01/29/21 Page 25 of 30

1

Nor have they explained why less restrictive measures, such as the percentage caps alone, would

2

cause any greater peril to the public. Thus, the Court finds that the 100- and 200-person

3

limitations under Tiers 2 and 3 of the Blueprint are not narrowly tailored to serve a compelling

4

interest and Plaintiffs are likely to succeed on the merits of this portion of their claim.

5

United States District Court
Northern District of California

6

3. Restrictions on “Places of Worship”
The State Orders mandate that in Tier 1 of the Blueprint and under the Regional Order,

7

“places of worship” may operate “outdoor only with modifications.” Blueprint, Plaintiffs’ Ex. 27.

8

As discussed above, the State has presented compelling evidence that a prohibition on indoor

9

worship services is narrowly tailored, however, Plaintiffs contend that the restriction prohibits all

10

other activities at places of worship as well. Plaintiffs maintain that “not one pastor could

11

assemble with one parishioner in any church” while subject to Tier 1 or Regional Order

12

restrictions. Amended Complaint ¶ 8.

13

At the preliminary injunction hearing on January 15, 2021, the State insisted that “what the

14

State’s orders address are worship services . . . it’s not true that all houses of worship are

15

shuttered, . . . the state isn’t regulating building by building, rather it’s the activity that occurs in

16

any building [that is prohibited].” Transcript, Dkt. No. 62, at 34:20-25:6. Despite the State’s

17

assurances, the Court finds that the restriction as written is not limited to worship services. On its

18

face, the phrase “places of worship” refers to the buildings, facilities, or locations where worship

19

occurs, not the activity of worshipping. The State has not offered and the Court is not aware of

20

any guidance or order from the State indicating that “places of worship” are free to operate indoors

21

for purposes other than worship services. The Court, therefore, agrees with Plaintiffs’

22

interpretation of the State Orders as prohibiting even one parishioner from entering his or her

23

place of worship for any purpose, including solitary prayer, confession, or making an offering.

24

The Court further finds that this overinclusive drafting results in restrictions on the free

25

exercise of religion that are not narrowly tailored to combatting COVID-19. The State’s

26

justification for the restrictions on places of worship pertain solely to worship services. The risks

27
28

Case No.: 5:20-cv-08241-EJD
ORDER GRANTING IN PART AND DENYING IN PART PLAINTIFFS’ MOTION FOR
PRELIMINARY INJUNCTION
25

Case 5:20-cv-08241-EJD Document 64 Filed 01/29/21 Page 26 of 30

1

associated with people of separate households gathering in close proximity for extended periods of

2

time, or involved in singing or chanting, are not present when individual parishioners, or even

3

multiple members of the same household, enter a place of worship for a purpose other than

4

attending a worship service. When not attending worship services, people are likely to move

5

through places of worship in a manner similar to the way they move through retail stores or

6

grocery stores. To the extent individual parishioners interact with clergy, those interactions likely

7

involve no more risk than certain personal care services, and that risk could be mitigated in similar

8

ways. Thus, the Court finds that Plaintiffs are likely to succeed on their Free Exercise claim to the

9

extent that the State Orders restrict activity at places of worship other than worship services.

10

United States District Court
Northern District of California

11

b. Likelihood of Success on the Merits as to the County Orders
Although the Ninth Circuit’s express holding in South Bay and the standard set forth in

12

Dayton Valley, compel a strict scrutiny review of the State Orders, neither of those courts had

13

reason to consider the County Orders at issue in this case. Thus, this Court must first consider

14

what level of scrutiny applies to the County Orders.

15

Unlike the State Orders, the County Orders do not impose any express restrictions on

16

“places of worship.” Rather, the County Orders regulate “gatherings” generally. See Capacity

17

Directive, Plaintiffs’ Ex. 147. Specifically, the current version of the Capacity Directive states

18

that indoor operation is “prohibited” for “Gatherings (e.g., political events, weddings, funerals,

19

worship services, movie showings, cardroom operations).” Revised Capacity Directive. In the

20

County’s Mandatory Directive on Gatherings, a gathering is defined as “an event, assembly,

21

meeting, or convening that brings together multiple people from separate households in a single

22

space, indoors or outdoors, at the same time and in a coordinated fashion—like a wedding,

23

banquet, conference, religious service, festival, fair, party, performance, movie theater operation,

24

barbecue, protest, or picnic.” See Gatherings Directive, Kieschnick Ex. J at 1. Apart from the

25

gatherings that take place within them, places of worship themselves presumably fall into the

26

category of “Any Other Facility Allowed to Open to the Public Under State and Local Orders,”

27
28

Case No.: 5:20-cv-08241-EJD
ORDER GRANTING IN PART AND DENYING IN PART PLAINTIFFS’ MOTION FOR
PRELIMINARY INJUNCTION
26

Case 5:20-cv-08241-EJD Document 64 Filed 01/29/21 Page 27 of 30

1

which is subject to a 20% capacity limitation. Revised Capacity Directive.7
Plaintiffs slightly mischaracterize the Capacity Directive. Plaintiffs argue that “SCC’s

United States District Court
Northern District of California

2
3

Mandatory Directive on Capacity Limitations (Ex 147), states specifically that ‘indoor operations

4

are prohibited’ for places of worship.” Motion at 12. It does not. The Capacity Directive limits

5

gatherings of all types, which includes worship services. Plaintiffs further argue that the Capacity

6

Directive is not neutral because it references “worship services” as an example of a gathering and

7

that laws “referenc[ing] . . . any religious practice, conduct, belief, or motivation” are not facially

8

neutral. Motion at 15 (citing Stormans, Inc., 794 F.3d at 1076). The County argues that listing

9

worship services as one of many examples of activities captured by the definition of gatherings

10

does not evidence any discriminatory or even disparate treatment of worship services. County

11

Opp. at 9 (citing Gish, 2020 WL 1979970, at *5 (“[F]acial neutrality does not require freedom

12

from any mention of religion.”)). On the contrary, the inclusion of worship services in a non-

13

exclusive list of both religious and secular activities demonstrates that all similar activities are

14

treated the same under the law.
As with the State Orders, Plaintiffs argue that the County restrictions on gatherings are

15
16

underinclusive because they do not reach groups of people at airport waiting gates. For the

17

reasons stated above, this is unpersuasive. Moreover, groups of people at airport gates do not

18

meet the definition of “gathering” because they do not “bring[] together multiple people from

19

separate households in a single space . . . at the same time and in a coordinated fashion.” See

20

Gatherings Directive at 1–2. This definition of gatherings is entirely neutral toward religion. The

21

capacity limitations are generally applicable to any gathering—religious or secular—that meets

22

the neutral definition. In other words, worship services are not “single[d] out” nor are they subject

23

to “especially harsh treatment” under the County Orders. Cf. Roman Catholic Diocese, 141 S. Ct.

24

at 66; see also South Bay, 2021 WL 222814, at *18 (holding that California’s ban on indoor

25
26
27
28

Under the previous version submitted by Plaintiffs, this category consists of “All Other Facilities
(including Governmental Facilities),” in which “[a]ny indoor areas accessible to the public are
limited to 10% capacity.” Capacity Directive at 7.
Case No.: 5:20-cv-08241-EJD
ORDER GRANTING IN PART AND DENYING IN PART PLAINTIFFS’ MOTION FOR
PRELIMINARY INJUNCTION
27
7

Case 5:20-cv-08241-EJD Document 64 Filed 01/29/21 Page 28 of 30

1

singing and chanting was subject to deferential rational basis review because it “applies to all

2

indoor activities, sectors, and private gatherings” and there was no evidence that “this ban results

3

in disparate treatment of religious gatherings”). The Court, therefore, applies a rational basis

4

review of the County Orders.

5
6

interest in preventing community spread as well as protecting worshippers, the communities in

7

which they live, and the public in general. As discussed above, gatherings of people from multiple

8

households, particularly indoors, carry a high risk of transmission. Preventing people from

9

gathering indoors and limiting the number of people permitted to gather outdoors rationally

10
11

United States District Court
Northern District of California

The County Orders survive a rational basis review because they further the government’s

12

furthers the legitimate goal of slowing transmission of the virus.
c. Irreparable Harm
It is well-settled that loss of First Amendment freedoms, for even minimal periods of time

13

“unquestionably constitutes irreparable injury.” Elrod v. Burns, 427 U.S. 347, 373, 96 S. Ct.

14

2673, 49 L. Ed. 2d 547 (1976) (plurality opinion); Roman Catholic Diocese, 141 S. Ct. at *67

15

(“There can be no question that the challenged restrictions, if enforced, will cause irreparable

16

harm.”); South Bay, 2021 WL 222814, at *16 (holding that plaintiff was “suffering irreparable

17

harm by not being able to hold worship services in the Pentecostal model to which it subscribes”).

18
19

d. Balance of Equities and Public Interest
Where the government is a party to a case in which a preliminary injunction is sought, the

20

balance of the equities and public interest factors merge. Drakes Bay Oyster Co. v. Jewell, 747

21

F.3d 1073, 1092 (9th Cir. 2014)).

22

The COVID-19 pandemic continues to pose unprecedented risk to public health. As the

23

rate of new infections in California has started to decline in recent weeks, the Regional Order was

24

lifted. Nevertheless, most counties in the state, including Santa Clara County, are still in Tier 1 of

25

the Blueprint, meaning that the restrictions on worship services have remained the same. If the

26

injunction is not granted, Plaintiffs will continue to be deprived of their ability to worship

27
28

Case No.: 5:20-cv-08241-EJD
ORDER GRANTING IN PART AND DENYING IN PART PLAINTIFFS’ MOTION FOR
PRELIMINARY INJUNCTION
28

Case 5:20-cv-08241-EJD Document 64 Filed 01/29/21 Page 29 of 30

1

collectively indoors. Although the Court has found that this burden on their free exercise of

2

religion is constitutional, the Court acknowledges that it is a heavy burden nevertheless.
On the other hand, if the injunction is granted large groups of congregants will

3
4

undoubtedly gather for indoor worship services at Plaintiffs’ churches. Unlike in Roman Catholic

5

Diocese, there is strong evidence to conclude that such gatherings would introduce significant risk

6

of transmission and lead to avoidable infections and death in the community. See South Bay, 2021

7

WL 222814, at *17 (“Indeed, it is difficult to see how allowing more people to congregate indoors

8

will do anything other than lead to more cases, more deaths, and more strains on California’s

9

already overburdened healthcare system.”). As the Ninth Circuit explained,

10

[E]ven if an individual congregant is willing to accept the risk of contracting
the virus by partaking in such conduct, the risk is not an individual’s risk to
take. The risk is also to the lives of others with whom an asymptomatic
person may come into close contact, to the healthcare workers who must care
for the person one infects, and to California’s overwhelmed healthcare
system as a whole.

United States District Court
Northern District of California

11
12
13
14

Id. at *15.

15

Given the significant risk to the general public associated with worship services at

16

Plaintiffs’ churches, the Court finds that the balance of equities and public interest favors denying

17

the injunction.

18

IV.

19
20

Conclusion
For the reasons stated, the Court GRANTS in part and DENIES in part Plaintiffs’ motion

for a preliminary injunction. IT IS HEREBY ORDERED THAT:

21

1) The State is enjoined from enforcing the 100-person capacity limit applicable in Tier 2

22

of the Blueprint and the 200-person capacity limit applicable in Tier 3 of the Blueprint.

23

This order shall not affect the State’s ability to enforce the percentage-based capacity

24

limitations applicable in any tier.

25
26
27
28

2) The State is enjoined from enforcing the Blueprint’s restrictions on activities at places
of worship other than worship services, except to the extent that it enforces such
Case No.: 5:20-cv-08241-EJD
ORDER GRANTING IN PART AND DENYING IN PART PLAINTIFFS’ MOTION FOR
PRELIMINARY INJUNCTION
29

Case 5:20-cv-08241-EJD Document 64 Filed 01/29/21 Page 30 of 30

1

restrictions against secular businesses or activities.

2

3) The preliminary injunction is denied in all other respects.

3

IT IS SO ORDERED.

4
5
6

Dated: January 29, 2021
______________________________________
EDWARD J. DAVILA
United States District Judge

7
8
9
10

United States District Court
Northern District of California

11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

Case No.: 5:20-cv-08241-EJD
ORDER GRANTING IN PART AND DENYING IN PART PLAINTIFFS’ MOTION FOR
PRELIMINARY INJUNCTION
30

EXHIBIT E

MANDATORY
DIRECTIVE:

Capacity Limitations

Issued November 15, 2020
sccgov.org/coronavirus

Revised and Effective: February 12, 2021

County of Santa Clara
Public Health Department
Health Officer
976 Lenzen Avenue, 2nd Floor
San José, CA 95126
408.792.5040

MANDATORY DIRECTIVE ON CAPACITY LIMITATIONS
*Please confirm that your facility may open under the State Order. Where there is a
difference between the local County Order and the State Order, the more restrictive order
must be followed. The State also has specific guidance for certain facilities that must be
followed in addition to this mandatory directive.*
Information on the State’s Order and State guidance is available at covid19.ca.gov.
Issued: November 15, 2020
Revised and Effective: February 12, 2021
Effective Upon Release
On August 28, 2020, the State issued a Statewide Public Health Officer Order (“State
Order,” available here) and the Blueprint for a Safer Economy (“Blueprint,”
available here). The State Order and Blueprint establish statewide restrictions applicable
to each “tier” to which counties are assigned.
All businesses, as that term is defined in the County Health Officer’s Revised Risk
Reduction Order issued on October 5, 2020 (“Revised Risk Reduction Order”), including
any for-profit, non-profit, or educational entity, must follow the mandatory
requirements in this Directive and any other applicable County Health Officer
Directive, the Revised Risk Reduction Order, the applicable restrictions under the State
Order and Blueprint, the State’s COVID-19 Industry Guidance documents, and any
applicable health and safety regulations. Where there is a difference between these rules,
the most restrictive rule must be followed.

This Directive establishes the County Health Officer’s rules on capacity. The risk of COVID-19
transmission increases when there is a higher number and density of people present at a facility,
particularly when indoors. To reduce this risk, the County Health Officer has established
limitations on the number of people who can be present at a facility at any given time. These
limitations are based on the capacity of the facility and/or the overall number of people who may
be present at any given time. These limitations vary depending on the risk of COVID-19
Mandatory Directive on Capacity Limitations (Order issued Oct. 5, 2020)

Page 1 of 7

Board of Supervisors: Mike Wasserman, Cindy Chavez, Otto Lee, Susan Ellenberg, S. Joseph Simitian
County Executive: Jeffrey V. Smith

transmission associated with the business or activity, and the risk of the business or activity
causing a super-spreader event.
This Directive is mandatory, and failure to follow it is a violation of the Health Officer’s
Order issued on October 5, 2020 (“Order”).
Mandatory Capacity Limitations
1. Capacity limitations
a. All gatherings, businesses, and entities must limit capacity to allow everyone to easily
maintain at least six feet of physical distance from everyone not in their household at
all times.
b. A business’s “outdoor operations” must meet the definition of that term from the
State’s Use of Temporary Structures for Outdoor Business Operations guidance.
c. The following capacity limitations apply to publicly accessible areas of the following
businesses, entities, and activities:
Business/Entity/Activity
Type
Gyms and Fitness Centers
(including swimming pools,
hot tubs, and saunas)
Gatherings (e.g., political
events, weddings, funerals,
worship services, movie
showings, cardroom
operations)

Indoors
Prohibited, except indoor pools
may operate at 20% capacity for
drowning prevention instruction
with certified instructors.
Prohibited.

Outdoors
Allowed, except hot tubs and
saunas must remain closed.
Allowed up to 400 people per
gathering, but subject to the
limitations set forth by the
State, which generally prohibit
all gatherings except religious
services, cultural ceremonies,
political protests, other
gatherings allowed by a State
guidance document, and
outdoor gatherings of up to 3
households.
Note: All gatherings must
comply with the Mandatory
Directive for Gatherings,
including rules for multiple
gatherings.

Mandatory Directive on Capacity Limitations
(Order Issued October 5, 2020)

Page 2 of 7

Business/Entity/Activity
Type
Museums, Zoos, and
Aquariums
All Retail Stores (including
grocery stores, drug stores,
and pharmacies)
Indoor Shopping Centers

Restaurants

Bars, Breweries, Distilleries

Indoors

Outdoors

Prohibited.

N/A

20% capacity.

N/A

Allowed. Total indoor capacity
for the shopping center as a
whole is calculated by adding
together the Reduced Maximum
Capacity for each individual
tenant business of the shopping
center that is allowed to open
indoors.

N/A

Common areas and food courts
must remain closed.
Prohibited (except for take-out
service; after ordering,
customers may not wait for
takeout orders indoors).
Prohibited (except for take-out
service; after ordering,
customers may not wait for
takeout orders indoors).

N/A

Prohibited (unless alcohol is
served with a meal purchased in
the same transaction).

Wineries

Prohibited (except for take-out
service; after ordering,
customers may not wait for
takeout orders indoors).

N/A

Smoking Lounges

Prohibited.

N/A

Family Entertainment Centers
and Other Entertainment
Facilities
Recreational Facilities
Lodging Facilities

Prohibited.

N/A

Prohibited.
Allowed for purposes specified
in Mandatory Directive for
Lodging; specific use areas
(e.g., gyms and retail) are

N/A
N/A

Mandatory Directive on Capacity Limitations
(Order Issued October 5, 2020)

Page 3 of 7

Business/Entity/Activity
Type
Personal Care Businesses
(e.g., hair salons and barber
shops; nail care; body art,
tattoo, and piercing shops;
esthetician, skin care, and
cosmetology services;
electrology, waxing,
threading, and other hair
removal services)
Non-essential Limited
Services (e.g., pet grooming,
shoe repair)
Public Transit
Healthcare Facilities

Indoors

Outdoors

subject to specific capacity
limitations in this Directive.
20% capacity.

N/A

20% capacity.

N/A

All indoor waiting areas
accessible to the public are
limited to 20% capacity.
Limit the number of people
entering the facility to allow
people to easily maintain at
least six feet of physical
distance from everyone outside
their household at all times
(unless it would interfere with
provision of care).
20% capacity.

N/A

All Other Essential Critical
Infrastructure Facilities
(including governmental
facilities)
Any Other Facility Allowed to 20% capacity.
Open to the Public Under
State and Local Orders

N/A

N/A

N/A

Metering Requirement
2.

System to “Meter” the Number of People in a Facility
a. Except acute care hospitals, any business with an indoor facility that members of
the public are allowed to enter must develop and implement written procedures to
“meter” or track the number of persons entering and exiting the facility to ensure
that the maximum capacity for the facility or area is not exceeded. For example,

Mandatory Directive on Capacity Limitations
(Order Issued October 5, 2020)

Page 4 of 7

an employee of the business may be posted at each entrance to the facility to
perform this function. The written procedures must also require staff to ensure all
members of the public entering the facility who are required to wear face
coverings are wearing them properly to cover both their nose and mouth.
b. The business must provide a copy of its written “metering” procedures to an

Enforcement Officer upon request and disclose the number of members of the
public currently present in the facility.
Workplace Breakrooms and Break Areas

3.

Limit access to indoor breakrooms and break areas
a. In all facilities except acute care hospitals, businesses must prohibit personnel from using
any indoor breakrooms or break areas for eating, drinking, or resting (even if they are
alone in the room at the time), or for any gathering. Businesses may allow personnel to
access these spaces only as necessary to use appliances (such as coffee makers,
refrigerators, or microwaves), or to use alone for other purposes provided by law (such as
lactation).
b. A business is required to limit access to indoor breakrooms or break areas as described in
Section 3(a) above unless it can demonstrate that (1) federal or state labor or workplace
safety laws prohibit the business from limiting access to its indoor breakrooms and break
areas as described in Section 3(a), and (2) the business is unable to implement any
alternatives (such as setting up outdoor spaces where personnel can maintain distancing
of at least six feet from one another while taking breaks; staggering break times to ensure
employees have sufficient time for outdoor or other socially distanced breaks; or any
other appropriate measures).
i.

To invoke this provision, the business must do all of the following:
1. Implement procedures to help employees use indoor breakrooms more
safely (such as staggering break times, limiting the number of employees
using the break room at one time, increasing ventilation in the room, and
regularly cleaning and disinfecting high-touch surfaces); AND
2. Draft a written protocol that (1) identifies the specific federal or state
law(s) prohibiting it from limiting access to its indoor breakrooms or
break areas as required by Section 3(a), (2) explains why it cannot
implement alternatives to an indoor breakroom or break area, and (3)
identifies the steps it is taking to ensure indoor breakrooms and break
areas are operated safely; AND

Mandatory Directive on Capacity Limitations
(Order Issued October 5, 2020)

Page 5 of 7

3. Prominently post its written protocol in or near its indoor breakrooms and
break areas; AND
4. Immediately provide a copy of its written protocol to any employee or
County Enforcement Officer upon request.
Calculating Maximum Capacity
4.

Calculating indoor capacity limitations
a. Capacity limitations apply to every room or area in a facility in which members of the
public spend time or engage in regulated activities. Rooms or areas that are subject to
capacity limitations are considered “capacity-limited rooms/areas.”
b. Capacity limitations must be based on the normal maximum occupancy for each
capacity-limited room/area that has a posted maximum occupancy. If there is not a
posted normal maximum occupancy, capacity limitations must be based on the square
footage of each capacity-limited room/area.
c. Gyms, fitness facilities, and family entertainment centers must use gross square
footage for each capacity-limited room/area (when indoor operation is allowed). All
other facilities must use net square footage for each capacity-limited room/area.
d. Capacity limitations establish the maximum number of people who may be present,
including both members the public and personnel.
e. For assistance in calculating capacity limitations and answers to frequently asked
questions, please visit www.sccgov.org/covidcapacity.

5.

Signage Requirements

Signage

a. Reduced Maximum Capacity signs must be posted for each capacity-limited
room/area that is subject to a specific percentage capacity limitation identified in
Section 2 of this Directive.
b. Each sign must clearly state the maximum number of people who may be inside that
particular capacity-limited room/area at the same time under this Directive. A
template of the Reduced Maximum Capacity sign is available here.

Mandatory Directive on Capacity Limitations
(Order Issued October 5, 2020)

Page 6 of 7

c. Each room/area must have one Reduced Maximum Capacity sign posted at each
entrance. The signs must be clearly visible to anyone entering the room.
d. Reduced Maximum Capacity signs must be updated to reflect any changes in the
allowable capacity.
e. For assistance in completing Reduced Maximum Capacity signage, please visit
www.sccgov.org/covidcapacity.
Stay Informed
For answers to frequently asked questions about capacity limitations and other topics, please see
the FAQ page. Please note that this Directive may be updated. For up-to-date information on
the Health Officer Order, visit the County Public Health Department’s website at
www.sccgov.org/coronavirus.

Mandatory Directive on Capacity Limitations
(Order Issued October 5, 2020)

Page 7 of 7

EXHIBIT F

MANDA O
DI EC I E:

Ga

I

cc

.
R

J

/c

14, 2020

da dE

a

c

:F b a

12, 2021

County of Santa Clara
Public Health Department
Health Officer
976 Lenzen Avenue, 2nd Floor
San José, CA 95126
408.792.5040

MANDATORY DIRECTIVE FOR GATHERINGS
*Please confirm that your gathering is allowed under the State Order. Where there is a
difference between the local County Order and the State Order, the more restrictive order
must be followed.*
Information on the State’s Order and State guidance is available at covid19.ca.gov.
Issued: July 14, 2020
Revised and Effective: February 12, 2021
Effective Upon Release
Every person, business, and entity in Santa Clara County must follow both the County and the
State Public Health Officer Orders. Below is information on: (1) the State’s general gathering
rules, and (2) the current rules for indoor gatherings in Santa Clara County.

1. General State Gatherings Rules:
As of January 25, 2021, the State’s Regional Stay at Home Order is no longer in effect in
Santa Clara County.
On August 28, 2020, the State issued a Statewide Public Health Officer Order (“State Order,”
available here and the Blueprint for a Safer Economy (“Blueprint,” available here). The State
Order and Blueprint establish statewide restrictions applicable to each “tier” to which counties
are assigned.
The State Health Officer has generally prohibited gatherings of all kinds statewide, with
limited exceptions for worship services, cultural ceremonies like weddings and funerals,
protest or political activities, and any gathering that is explicitly allowed by a State COVID-19
Industry Guidance document (https://covid19.ca.gov/industry-guidance/) or by the State’s
“Stay home Q&A” page (https://covid19.ca.gov/stay-home-except-for-essential-needs/). The
State also allows private gatherings consisting of no more than three households pursuant to
the State’s rules, but such gatherings must be outdoors while the County is in the Purple Tier.

Mandatory Directive on Capacity Limitations (Order issued Oct. 5, 2020)

Page 1 of 12

Board of Supervisors: Mike Wasserman, Cindy Chavez, Otto Lee, Susan Ellenberg, S. Joseph Simitian
County Executive: Jeffrey V. Smith

All gatherings are subject to the mandatory requirements in this Directive and any other
applicable County Health Officer Directive, the County Health Officer’s Revised Risk
Reduction Order issued on October 5, 2020, the applicable restrictions under the State Order
and Blueprint, the State’s COVID-19 Industry Guidance documents, and any applicable health
and safety regulations.
Note: While wedding ceremonies may occur outdoors subject to the mandatory requirements
of this Directive, the State has clarified that “[w]edding receptions/parties/celebrations are
NOT permitted at this time” under State Public Health Officer orders.

2. Current Rules for Indoor Gatherings in Santa Clara County:
Religious worship services may occur indoors at 20% capacity. They must comply with all
rules listed in this Directive for indoor gatherings. The Health Officer strongly discourages
such indoor gatherings and urges religious institutions and congregants not to attend indoor
gatherings.
Because indoor gatherings continue to pose a severe risk of COVID-19 transmission, all other
indoor gatherings are currently prohibited. No gatherings other than religious worship
services may occur indoors, and the rules listed below for indoor gatherings do not apply to
any gatherings other than religious worship services until this restriction is lifted.

While COVID-19 is still circulating in our community, the Health Officer strongly discourages
any gathering together with people from other households. Indoor gatherings are particularly
risky because COVID-19 transmission occurs more easily indoors than outdoors, and COVID-19
continues to circulate widely. The most recent scientific evidence underscores the risk of
transmission indoors, and indoor gatherings are always strongly discouraged, even when
allowed. But gatherings are not prohibited by this Directive as long as everyone attending the
gathering strictly complies with all the requirements set forth below to reduce risk and keep
everyone who attends as safe as possible.
A “gathering” is an event, assembly, meeting, or convening that brings together multiple people
from separate households in a single space, indoors or outdoors, at the same time and in a
coordinated fashion—like a wedding, banquet, conference, religious service, festival, fair, party,
performance, competition, movie theater operation, fitness class, barbecue, protest, or picnic.
Although the County allows all types of gatherings to occur in compliance with this Directive, at
this time the State generally allows gatherings only for purposes of worship services, cultural
ceremonies like funerals and weddings (but not wedding receptions, which are prohibited), and
protest or political activities. The State also allows gatherings for purposes identified in the
State’s Industry Guidance or any other State guidance document. The State also allows small
gatherings of any type with no more than three households. These gatherings must follow the
Mandatory Directive for Gatherings
(Order Issued October 5, 2020)

Page 2 of 12

County’s rules (contained in this Directive) and the State’s rules, including the State requirement
that such gatherings must be outdoors when counties are in the Purple Tier. Because the stricter
of the requirements applies, the only types of gatherings allowed in the County are those allowed
by the State.
This Directive does not regulate whether a facility is open or closed. For example, facilities that
are typically used for gatherings—such as places of worship, meeting halls, and event spaces—
may remain open for purposes that do not involve gatherings, even when gatherings are
prohibited indoors.
This Directive explains the local requirements for gatherings in Santa Clara County. This
Directive is mandatory, and failure to follow it is a violation of the Health Officer’s Order
issued October 5, 2020 (“Order”).
The Order Issued October 5, 2020
The Order imposes several restrictions on all businesses and activities to ensure that the County
stays as safe as possible. All persons and businesses (including nonprofits, educational entities,
and any other business entity, regardless of its corporate structure) that organize or host
gatherings—such as religious institutions, wedding venues, wedding planners/coordinators,
convention centers, and conference/meeting room rental facilities—must comply with the
following requirements, and must ensure that participants comply with all applicable
requirements:
Social Distancing Protocol: All businesses and governmental entities that have not
already done so must fill out and submit an updated Social Distancing Protocol under the
October 5, 2020 Health Officer Order. Social Distancing Protocols submitted prior to
October 11, 2020 are no longer valid. The Revised Social Distancing Protocol must be
filled out using an updated template, which is available here. The Protocol is submitted
under penalty of perjury, meaning that everything written on the form must be truthful
and accurate to the best of the signer’s knowledge, and submitting false information is a
crime. The Protocol must be distributed to all workers, and it must be accessible to all
officials who are enforcing the Order.
Signage: All businesses and governmental entities must print (1) an updated COVID-19
PREPARED Sign and (2) a Social Distancing Protocol Visitor Information Sheet, and
both must be posted prominently at all facility entrances. These are available for printing
after submission of the Revised Social Distancing Protocol online. The Revised Social
Distancing Protocol specifies additional signage requirements.
Face Coverings: Everyone must wear face coverings at all times specified in the
California Department of Public Health’s mandatory Guidance for the Use of Face
Coverings (“Face Covering Guidance”) and in any specific directives issued by the
Mandatory Directive for Gatherings
(Order Issued October 5, 2020)

Page 3 of 12

County Health Officer. Unless otherwise stated in this Directive, face coverings must
be worn at all times when attending a gathering.
Capacity Limitation: All businesses must comply with the capacity limitations
established in the Mandatory Directive on Capacity Limitations.
Mandatory Requirements for All Gatherings
In general, the more people a person interacts with at a gathering, the closer the physical
interaction is, the more enclosed the gathering space is, and the longer the interaction lasts, the
higher the risk that a person with an unknown SARS-CoV-2 infection (the infection that causes
COVID-19) might spread it to others. If not everyone follows the rules to safely gather, the risk
of spreading SARS-CoV-2 is even higher. Based on those principles, the Health Officer’s
directives for all gatherings are:
1. If Gathering, the Health Officer Strongly Urges You to Gather Outdoors
a. Gatherings that occur outdoors are significantly safer than indoor gatherings. To
qualify as an outdoor gathering, the gathering must be held entirely outdoors,
except that attendees may go inside to use restrooms as long as the restrooms are
frequently disinfected.
b. The maximum number of people allowed at an outdoor gathering is specified in
the Mandatory Directive on Capacity Limitations. This includes everyone
present, such as hosts, workers, and guests. The space must be large enough so
that everyone at a gathering can maintain at least 6-foot social distance from
anyone (other than people from their own household).
i. Example 1: A small church hosts a funeral ceremony in its churchyard.
The churchyard is only big enough to allow 25 people to easily maintain
6-foot social distancing between households at all times. No more than
25 people may be present at the funeral ceremony.
ii. Example 2: A couple holds their wedding ceremony outdoors at a historic
hotel. The outdoor ceremony space is big enough for 1,000 people to
maintain 6-foot distancing. Even so, no more than the maximum
number of people allowed by the Mandatory Directive on Capacity
Limitations may be present at the wedding ceremony.
c. A gathering is considered an outdoor gathering only if it is held at a facility that
allows the free flow of outdoor air through the entire space, as specified in the
California Department of Public Health’s mandatory guidance on Use of
Temporary Structures for Outdoor Business Operations.
Mandatory Directive for Gatherings
(Order Issued October 5, 2020)

Page 4 of 12

d. Fences and screens that do not impede airflow are not considered walls or sides
for purposes of determining whether an area is outdoors. Partitions around or
within the facility may be used and do not qualify as sides so long as they are no
more than 3 feet in height as measured from the floor.
2. The Health Officer Strongly Discourages Indoor Gatherings, Even When They Are
Allowed
a. Indoor gatherings may not be allowed depending on the County’s current tier
under the State’s Blueprint for a Safer Economy and other local factors. See the
“Current Rules for Indoor Gatherings in Santa Clara County” box at the top of
this Directive for information on current rules.
b. When indoor gatherings are allowed, the maximum number of people allowed at
an indoor gathering is specified in the Mandatory Directive on Capacity
Limitations. This includes everyone present, such as hosts, workers, and guests.
3. Don’t Attend Gatherings If You Feel Sick or You Are in a High-Risk Group
a. If you feel sick or have any COVID-19-like symptoms (fever, cough, shortness of
breath, chills, night sweats, sore throat, nausea, vomiting, diarrhea, tiredness,
muscle or body aches, headaches, confusion, or loss of sense of taste/smell), you
must stay home and may not attend any gatherings.
b. As explained on the People Who Need Extra Precautions page, people at higher
risk of severe illness or death from COVID-19 are strongly urged not to attend
any gatherings.
4. All Gatherings Must Have an Identified and Designated Host Who Is Responsible for
Ensuring Compliance with All Requirements
a. A specific person or business (including nonprofits, religious organizations,
educational entities, or any other business entity) must be the designated host for a
gathering and ensure compliance with all requirements in the Order and this
Directive. The host is responsible and subject to enforcement for any failure
by participants to comply with the Order and this Directive.
b. The host also must maintain a list with names and contact information of all
participants at the gathering. If a participant tests positive for COVID-19, the
host is legally required to assist the County Public Health Department in any case
investigation and contact tracing associated with the gathering. Public Health will
ask for the list of attendees only if an attendee tests positive for COVID-19. The
Mandatory Directive for Gatherings
(Order Issued October 5, 2020)

Page 5 of 12

County Public Health Department will keep this information confidential and use
it only for case investigation and contract tracing purposes. Hosts must maintain
these records for at least 21 days. The host must provide the list to any County
Enforcement Officer immediately upon request.
5. Practice Physical Distancing and Hand Hygiene at Gatherings
a. At all gatherings, everyone must stay at least 6 feet away from other people
(except people in their own household) at all times.
b. Seating arrangements must provide at least 6 feet of distance (in all directions—
front-to-back and side-to-side) between different households. This can be done
by spacing chairs apart, or for fixed seating like benches or pews, by marking off
rows and indicating seating areas with tape. Seating and tables must be sanitized
after each use.
c. Everyone at a gathering should frequently wash their hands with soap and water,
or use hand sanitizer if soap and water are not available. The host must make
handwashing facilities or hand sanitizer available for participants to use.
6. Rules for Face Coverings, Singing, Chanting, Shouting, and Playing Wind Instruments
Current scientific evidence shows that COVID-19 spreads primarily through respiratory droplets
and fine aerosols that are released from the body when people breathe, sing, shout, or otherwise
expel air from their lungs. Face coverings prevent many of these droplets and aerosols from
escaping into the air, and wearing a face covering has been shown to significantly decrease the
risk of COVID-19 transmission. Conversely, singing, chanting, shouting, and playing wind
instruments have all been shown to significantly increase the risk of COVID-19 transmission,
because these activities all release increased amounts of respiratory droplets and fine aerosols
into the air. To reduce the risk of spreading COVID-19, the following rules apply to gatherings:
a. For all indoor gatherings (when indoor gatherings are allowed):
i. Everyone, including performers/presenters, must wear a face covering
at all times (except for very young children, people for whom face
coverings are medically inadvisable, or for communication by or with
people who are hearing impaired).
1. Food and drink may not be served at indoor gatherings—including
at movie theaters—even when indoor gatherings are allowed,
except as necessary to carry out a religious ceremony.

Mandatory Directive for Gatherings
(Order Issued October 5, 2020)

Page 6 of 12

2. Face coverings may be removed to meet urgent medical needs (for
example, to use an asthma inhaler, consume items needed to
manage diabetes, take medication, or if feeling light-headed).
ii. Singing, chanting, shouting, and playing wind instruments are strictly
prohibited.
b. For all outdoor gatherings:
i. Except as described below or in other directives issued by the County
Health Officer, everyone must wear a face covering at all times (except
for very young children, people for whom face coverings are medically
inadvisable, or for communication by or with people who are hearing
impaired).
1. Attendees may remove their face coverings to eat or drink but must
put their face covering back on as soon as they are finished eating
or drinking.
2. Attendees may remove their face coverings to meet urgent medical
needs (for example, to use an asthma inhaler, consume items
needed to manage diabetes, take medication, or if feeling lightheaded).
ii. If an outdoor gathering involves a performance/presentation,
performers/presenters may remove their face coverings while they are
performing/presenting, but they must replace their face coverings after
they finish.
1. No more than 12 performers/presenters are permitted in the
performance/presentation area at a time.
2. Until their face covering is back on, any performer/presenter who
removes their face covering to speak must maintain at least 12 feet
of social distance from everyone not in their household.
3. Until their face covering is back on, any performer/presenter who
removes their face covering to sing, chant, shout, or play a wind
instrument must maintain at least 12 feet of social distance from all
other performers/presenters who are not in their household and at
least 25 feet from all attendees who are not performing/presenting.

Mandatory Directive for Gatherings
(Order Issued October 5, 2020)

Page 7 of 12

4. Any performer/presenter playing a wind instrument must cover the
opening of the instrument (e.g., with cloth) to reduce the spread of
respiratory droplets from the instrument.
5. Performers/presenters who are singing or chanting are strongly
encouraged to do so at a quiet volume (at or below the volume of a
normal speaking voice).
iii. All attendees who are not performing/presenting must wear a face
covering at all times while singing, chanting, or shouting. Because these
activities pose a very high risk of COVID-19 transmission, face coverings
are particularly essential to reduce the spread of respiratory droplets and
fine aerosols. People who cannot wear a face covering for medical or
other reasons are strongly discouraged from singing, chanting, or shouting.
1. Attendees who are singing, chanting, or shouting are strongly
encouraged to maintain increased social distancing greater than 6
feet to further reduce risk.
2. Attendees who are singing or chanting are strongly encouraged to
do so at a quiet volume (at or below the volume of a normal
speaking voice).

7. Stagger Attendance at Gatherings
a. For gatherings that have the potential to draw larger groups, like community
meetings or religious services, consider offering multiple sessions, requiring
reservations that cap attendance at each session, staggering arrivals and
departures, and encouraging or requiring that the same group stays together (for
example, Group A attends the Sunday morning worship service every week, and
Group B attends the separate Tuesday evening worship service every week).
b. There is no limit on the number of gatherings that may be held at different times
on a single day—for example, a mosque may hold prayer services five times a
day—as long as (i) each gathering follows all the rules, and (ii) restrooms, chairs
and tables, and any other high-touch surfaces are properly sanitized between
groups.
c. A venue may host multiple outdoor gatherings at the same time (for example,
multiple small barbecues in a large outdoor space like a 20-acre ranch)—as long
as:
Mandatory Directive for Gatherings
(Order Issued October 5, 2020)

Page 8 of 12

i. Each gathering follows all the rules in the Order and in this Directive.
Each gathering must, for instance, have its own designated host who must
maintain a list of participant names and contact information.
ii. Each gathering has its own area marked by prominent signage, barriers, or
ropes, and there is a buffer zone of at least 100 feet between the
boundaries of any two separate gatherings.
iii. The participants at a gathering, including hosts, workers, and guests, do
not mix between or among different gatherings and stay strictly in their
own area.
iv. There are sufficient restroom facilities, or a system of using the restroom
facilities, such that participants from different gatherings do not have
contact with one another when they use the restroom.
d. When indoor gatherings are allowed, a venue may host multiple indoor gatherings
at the same time (for example, multiple gatherings in separate rooms within a
building)—as long as:
i. Each gathering follows all the rules in the Order and in this Directive.
Each gathering must, for instance, have its own designated host who must
maintain a list of participant names and contact information.
ii. Each gathering is fully separated by solid, floor-to-ceiling walls or
partitions from any other gathering.
iii. Where possible, the HVAC system for each space with a gathering should
ventilate to the outdoors, rather than into a space with another gathering.
iv. The participants at a gathering, including hosts, workers, and guests, do
not mix between or among different gatherings and do not enter into a
common space with participants from any other gathering.
v. There are sufficient restroom facilities, or a system of using the restroom
facilities, such that participants from different gatherings do not have
contact with one another when they use the restroom.

8. Livestreaming, Broadcasting, and Recording with No Audience Present

Mandatory Directive for Gatherings
(Order Issued October 5, 2020)

Page 9 of 12

Businesses may livestream, broadcast, or record performances, services, and classes at indoor
facilities without live audiences or members of the public present. All such livestreamed,
broadcasted, or recorded events at indoor facilities must comply with the following rules:
a. When livestreaming under this provision, only personnel may be present at the
facility. Audiences or other members of the public are strictly prohibited. The
number of personnel inside the facility must be limited to the minimum necessary
to conduct the event (and may never exceed 12 people or the maximum number of
people allowed under the facility’s current capacity limitation as dictated by
the Mandatory Directive on Capacity Limitations, whichever is fewer).
b. All personnel, including performers/presenters in the performance area, must
maintain at least 6 feet of physical distance from everyone outside their household
at all times.

c. People performing or presenting during a livestreamed event may remove their
face coverings during the performance or presentation if everyone maintains at
least 12 feet of physical distance from everyone outside their household at all
times. Even so, the Health Officer strongly urges people performing or presenting
to wear a face covering whenever possible. All others on-site must wear a face
covering in compliance with State and County Health Officer requirements.
d. When livestreaming under this provision with no audience present, singing,
chanting, or playing wind instruments indoors is strongly discouraged but may
occur so long as everyone maintains at least 12 feet of physical distance from
everyone outside their household.
For clarity, the above rules for livestreaming, broadcasting, and recording do not apply if any
member of the public is present for the event. Businesses may livestream, broadcast, or
otherwise record an event at which members of the public are present (so long as current State
and County Health Officer orders allow members of the public to be present for such an event),
but there are no special rules that would apply to the livestream, broadcast, or recording. Instead,
these events must comply with all rules currently governing the business’s general operations.
Note that these rules may be stricter those listed above.
9. Maximize Ventilation for Indoor Gatherings (When Indoor Gatherings Are Allowed)
a. Open doors and windows to maximize circulation of outdoor air whenever
environmental conditions and building requirements allow. Consider
modifications to the facility to increase outdoor air exchange, such as replacing

Mandatory Directive for Gatherings
(Order Issued October 5, 2020)

Page 10 of 12

non-opening windows with openable screened windows. Contact your local
Building Department for more information on permit requirements.
b. Indoor facilities with central air handling/HVAC systems must ensure that HVAC
systems are serviced and functioning properly and, to the extent feasible and
appropriate to the facility:
i. Evaluate possibilities for and implement upgrades to the system to ensure
that air filters are functioning at the highest efficiency compatible with the
currently installed filter rack and air handling system (ideally MERV-13
or greater).
ii. Increase the percentage of outdoor air through the HVAC system,
readjusting or overriding recirculation (“economizer”) dampers.
iii. Disable demand-control ventilation controls that reduce air supply based
on temperature or occupancy.
iv. Implement the additional measures set forth in the County’s Guidance for
Ventilation and Air Filtration Systems.
c. Indoor facilities that do not have central air handling/HVAC systems or that do
not operate or control the system must take the following measures, to the extent
feasible and appropriate to the facility:
i. Set any ceiling fans to draw air upwards away from participants.
ii. If using portable fans, position them near open doors/windows and use
them to draw or blow inside air to the outside of the facility. Position fans
to minimize blowing air between occupants, which may spread aerosols.
iii. Consider installing portable air filters appropriate to the space.
iv. Implement additional applicable measures set forth in the County’s
Guidance for Ventilation and Air Filtration Systems.
d. Upon request by a County Enforcement Officer or County Public Health
Department Staff, the facility may be required to perform a comprehensive
evaluation of the facility’s ventilation and air filtration system by an appropriately
licensed professional, and produce documentation regarding this evaluation to the
County.

Mandatory Directive for Gatherings
(Order Issued October 5, 2020)

Page 11 of 12

Stay Informed
For answers to frequently asked questions about this industry and other topics, please see
the FAQs page. Please note that this Directive may be updated. For up-to-date information on
the Health Officer Order, please visit the County Public Health Department’s website
at www.sccgov.org/coronavirus.

Mandatory Directive for Gatherings
(Order Issued October 5, 2020)

Page 12 of 12

